<html>
<title> - THE U.S. ROLE AND STRATEGY IN THE MIDDLE EAST: THE HUMANITARIAN CRISIS</title>
<body><pre>[Senate Hearing 114-810]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-810
 
 THE U.S. ROLE AND STRATEGY IN THE MIDDLE EAST: THE HUMANITARIAN CRISIS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                     
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 29, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       
       


       Available via the World Wide Web: https://www.govinfo.gov
       
       
       
       
       
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
34-923 PDF               WASHINGTON : 2019            
       


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                 Lester Munson, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hon. Bob Corker, U.S. Senator From Tennessee.....................     1
Hon. Benjamin L. Cardin, U.S. Senator From Maryland..............     2
The Right Honourable David Miliband, President and Chief 
  Executive Officer, International Rescue Committee, New York, NY     5
    Prepared Statement...........................................     7
Dr. Michel Gabaudan, President, Refugees International, 
  Washington, DC.................................................    13
    Prepared Statement...........................................    16
Nancy Lindborg, President, United States Institute of Peace, 
  Washington, DC.................................................    19
    Prepared Statement...........................................    20

              Additional Material Submitted for the Record

Response of David Miliband to Question Submitted by Senator Tim 
  Kaine..........................................................    45

                                 (iii)

  


 THE U.S. ROLE AND STRATEGY IN THE MIDDLE EAST: THE HUMANITARIAN CRISIS

                              ----------                              


                      TUESDAY, SEPTEMBER 29, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker 
(chairman of the committee) presiding.
    Present: Senators Corker, Risch, Johnson, Gardner, Perdue, 
Cardin, Menendez, Shaheen, Coons, Murphy, Kaine, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. This meeting of the Foreign Relations 
Committee will come to order.
    I would like to thank our witnesses for being here. Nancy, 
as I understand it, is tied up in traffic and will be coming in 
in a few moments. So we are going to go ahead and get started. 
I know we have a vote a little bit later on. We want to make 
sure that we get the full benefit of your testimony.
    But I want to thank the members for being here.
    Today's hearing is the second in a series of hearings 
examining the role of the United States in the Middle East. 
This hearing will focus on the immense humanitarian crisis 
emanating from the region. The images of hundreds of thousands 
of men, women, and children fleeing for safety should challenge 
every moral fiber within us. These are people just like us that 
want only to be able to raise their families in dignity and 
cherish the same values and things that we all care about. And 
yet, we watch them on television in these desperate 
circumstances.
    We all know the scale of this tragedy, but it is worth 
again outlining the numbers. In Syria, in a country with a 
population of 22 million in 2011, more than 4.1 million have 
fled the country and more than 7.6 million are displaced inside 
the country. So half of Syria's population is not at home, not 
living in their hometowns but in some other place.
    Some estimates put the number of deaths in Syria at over 
300,000--people have different estimates--with the Assad regime 
being responsible for over 100,000 civilian deaths. Let me say 
that one more time: The Assad regime is responsible for over 
100,000 civilian deaths.
    In Iraq, 8.6 million are in need of humanitarian assistance 
and 3.2 million are displaced.
    Solutions must address why people are fleeing. I look 
forward to hearing the views of our witnesses today.
    Nancy, welcome. You did not miss anything actually.
    But I believe that after 4 years of war there is a 
perception that there is no light at the end of the tunnel. As 
Assad continues to barrel bomb his own people, the Russians and 
Iranians continue to ensure that he has the means to do it.
    More than 1 year after establishing a global coalition to 
counter ISIS, we learned that the main beneficiary, Iraq, has 
allowed Iran, Russia, and Syria to establish their own 
coalition within a coordination cell in Baghdad. It now appears 
that our administration is seriously debating some type of an 
accommodation with the Russians in order to fight ISIS.
    It is difficult to understand how working alongside the 
backers of Assad could in any way stem the flow of refugees who 
are fleeing the barrel bombs. It is important to remember that 
the war in Syria began with Assad, and he is still doing the 
same things today on a daily basis that he was doing at the 
time.
    I do want to digress and say I know that David Miliband 
took a very opposing view to most of the Labour Party when he 
at one time served in the Parliament and felt that interaction 
inside Syria should be taking place by Great Britain. Many of 
us felt the same way, and as crass as it may sound, I think all 
of us--all of us--today as we watch what is on television and 
see these refugees and the circumstances they are in--all of us 
are reaping what we sowed. We did not get involved at a time 
when we could have made a difference.
    I hope our witnesses can help us understand the scale and 
effect of the humanitarian crisis and what steps the United 
States and others should be taking to mitigate it.
    But I would like to again stress that we cannot simply rely 
on humanitarianism alone in this crisis and that it is 
incumbent upon us to work toward realistic policies that would 
bring back the hope of a normal life to those in need.
    Thank you again for appearing before our committee, and I 
look forward to your testimony.
    And with that, I would like to turn to our distinguished 
ranking member.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Mr. Chairman, first let me thank you 
for convening this hearing. This committee works in a 
bipartisan way in order to advance our foreign policy 
objectives, and I congratulate the chairman for his leadership 
in that regard. You and I talked a while back as to what we can 
do. We talked about what we can do in regards to the refugee 
crisis globally, but we recognize that Syria is an immediate 
concern, it is a humanitarian crisis, and there is a conflict 
there that needs a solution. It is complicated, of course, by 
ISIS's presence in Syria.
    So I want to thank you for the manner in which we were able 
to convene this hearing to see how the United States Senate and 
Congress can advance the goals of the United States in dealing 
with this international crisis, how we can take a look at our 
traditional tools and perhaps refine them, and look at new ways 
that we can energize the United States involvement in the 
international community to deal with the humanitarian crisis. 
And I would agree with you. We also need to deal with the 
political underpinnings of why people have to flee their homes.
    For the first time since World War II, almost 60 million 
people have been forced from their homes and displaced in their 
own countries or forced to flee abroad. We are seeing more and 
more conflicts that do not end and result in exponential 
increases in humanitarian needs. The magnitude of the Syrian 
disaster is perhaps the most shocking. As the war enters its 
5th year, the situation is increasingly desperate for both the 
refugees and host countries like Jordan, Lebanon, Turkey, and 
northern Iraq.
    Because Syrians are finding it increasingly difficult to 
find safety, they are being forced to move further afield. That 
is why so many are risking their lives to cross the 
Mediterranean. There are currently some 4 million Syrian 
refugees plus another 7.6 million internally displaced Syrians 
suffering and in need of humanitarian assistance. More and more 
families are forced to send their children to work or marry off 
their young daughters, just to survive.
    It is hard to comprehend the impact of millions of refugees 
on Lebanon, Jordan, and Turkey. The number of refugees in 
Lebanon would be equivalent--by percentage of their 
population--to the United States receiving 88 million new 
refugees. That is a shocking number for that country. Turkey 
has already spent $6 billion in direct assistance to refugees 
in its care. That is a huge part of the Turkish economy. At the 
same time, we in the West, until very recently, have been 
reluctant to admit even the most vulnerable Syrian refugees. 
While contributing generously to humanitarian funding, the 
United States has only accepted about 1,500 Syrian refugees, 
although the White House recently announced it would admit 
10,000 Syrians.
    We know that the Syrian humanitarian disaster, which has 
destabilized an entire region, is not the accidental byproduct 
of conflict. It is instead one result of the strategy pursued 
by the Assad regime. The United Nations Commission of Inquiry 
on Syria has documented that the Assad regime is using barrel 
bombs, intentionally engages in the indiscriminate bombardment 
of homes, hospitals, schools, and water and electrical 
facilities in order to terrorize the civilian population. As 
millions of families are displaced multiple times and, as the 
chairman pointed out, with the casualty numbers now approaching 
300,000, the number of people fleeing the country will only 
rise.
    Mr. Chairman, I agree with you. The ultimate solution here 
is for Assad to leave. We know that we need to have Assad out 
and I believe he should leave for The Hague to be held 
accountable for his war crimes. So we need to work on a 
political solution. I know the President is in New York today 
meeting with world leaders to talk about a political path 
forward, but in the meantime, we do have the humanitarian 
crisis and there is no end in sight for the people trying to 
flee. As you said, what everyone wants is a safe environment 
for their families.
    In Iraq, the number of people requiring humanitarian 
assistance has grown to 8.2 million people. Three million have 
been forced from their homes. Half of the displaced are 
children.
    To the south, Yemen is on the brink of humanitarian 
catastrophe. That country was particularly vulnerable even 
before this conflict. And now civilians throughout the country 
are facing an alarming level of suffering and violence. An 
estimated 21 million people are afflicted by the war and 
require humanitarian assistance; 1.5 million people have been 
forced from their homes and are now living in empty schools or 
other public buildings or along highways.
    The global refugee trends are indeed alarming. The 
international assistance being provided is not keeping up with 
the scale of the problem. The United Nations have been able to 
raise only 38 percent of the $7.4 billion it says it needs to 
care for the Syrians. We need to ask ourselves hard questions 
about how we can increase the effectiveness of the assistance.
    And now protracted crises seem to be a new normal, with 
many refugees displaced for 17 years on average. Let me just 
underscore that point. Our refugee program is aimed at looking 
at refugees as being temporary, and figuring out how we get 
them back safely to their homes. That is what a refugee was 
always thought to be. But if you are in some other place for 17 
years, the chances of you going back to your native country is 
remote. In Syria, some of the communities no longer even exist. 
And many others have been transformed to such a point that it 
would not be safe anytime in the near future for the Syrians to 
be able to return to their homes.
    We need to rethink our refugee laws to recognize that a 
large number of refugees are not going to return to their 
native countries. And the United States needs to look at a 
refugee policy that is sensitive to the new norm and that deals 
with the realities that people need to find new homes for their 
families.
    I believe strongly we need to use humanitarian and 
development dollars more skillfully so that we are providing 
durable and development-like solutions to chronic 
vulnerability.
    In closing, we must recognize that as these conflicts 
proliferate, no corner of the world will be left unaffected. We 
must recommit ourselves to work smarter and harder to assist 
the world's most vulnerable people. As we seek to win the 
hearts and minds in this region, our efforts to provide real, 
tangible humanitarian assistance to the people most affected by 
this conflict will be more effective than sending more military 
assistance or more weapons into a conflict where there is no 
pathway for success. Our humanitarian engagement is a moral and 
political necessity, and I look forward to hearing from our 
witnesses as to how we can be more effective in dealing with 
the humanitarian crisis and hopefully addressing the causes of 
why people need to flee their homes.
    The Chairman. Thank you very much. And thanks for a 
lifetime of effort ensuring people have appropriate human 
rights.
    Senator Cardin. Can I just add one thing, Mr. Chairman? 
Most people might notice that our chairman, who is always even-
tempered and always in a good mood, is particularly proud 
today. He became a grandfather for the first time, and I know 
our committee offers him our congratulations.
    [Applause.]
    The Chairman. Thank you. No doubt an incredible experience. 
And I only wish the people we are talking about today have 
similar experiences.
    So thank you again for your comments.
    Our first witness is The Right Honourable David Miliband, 
somebody we all respect, President and CEO of the International 
Rescue Committee. Mr. Miliband previously had a distinguished 
political career in the U.K. serving as Foreign Secretary. 
Thank you for being here.
    Our second witness today is Michel Gabaudan. Thank you for 
being here, sir. President of Refugees International. Michel 
spent more than 25 years at the UNHCR. Thank you for bringing 
that knowledge with you today.
    Finally, our third witness that we will hear from today is 
Ms. Nancy Lindborg, president of the United States Institute of 
Peace, someone who we also have seen many, many times, and we 
thank her. Nancy has served at USAID and as President of Mercy 
Corps. Thank you for that service.
    Thank you all for being here. I know you all have been here 
many times. If you could each spend about 5 minutes giving your 
positions--without objection, your written testimony will 
become a part of the record. And if you could just go down the 
line and give your testimony, we would appreciate it. We look 
forward to questions and certainly your comments. Thank you.

STATEMENT OF THE RIGHT HONOURABLE DAVID MILIBAND, PRESIDENT AND 
 CHIEF EXECUTIVE OFFICER, INTERNATIONAL RESCUE COMMITTEE, NEW 
                            YORK, NY

    Mr. Miliband. Thank you, Mr. Chairman. I think you probably 
heard, but I want to say thank you and that I am honored to be 
here.
    I want to congratulate you on not just holding a hearing on 
the humanitarian situation in the Middle East but recognizing 
the links between the humanitarian situation and the 
geopolitical situation.
    My organization, the International Rescue Committee, has, I 
think, a unique perspective on the crisis because we are 
working in the conflict zones of Syria, Iraq, and Yemen. We are 
in the neighboring states that you referred to, both Senator 
Corker and Senator Cardin. We are in Greece on the Island of 
Lesvos where half of the refugees arriving in Europe are 
landing on European soil. And we are active in the United 
States resettling 10,000 refugees in 26 cities across this 
country every year.
    The roiling conflicts in the Middle East, as both of you 
have said, present the most challenging, dangerous, and complex 
humanitarian challenge in the world today. And I think they 
present a preeminent moral and geopolitical case for renewed 
American engagement.
    Conscious of your time constraints and the benefit of a 
genuine dialogue in the question and answer session, I want to 
confine my remarks to four areas that more or less follow my 
written testimony and focus less on our analysis of the 
situation but what might be done.
    First, inside Syria, there is a war without law and there 
is misery without aid for the millions of people that you 
referred to, Senator. It is driving people to risk life and 
limb to get to Europe. And almost worse than the numbers you 
recited is that there is no structured political process at the 
moment to offer hope of an end to the war.
    The number one priority that we would present to the 
committee is to turn or help turn the words of U.N. 
resolutions, which are good words supported by all members of 
the Security Council, into actions that prevent death and 
destruction of civilians and their property by barrel bombs, 
car bombs, and mines. We advocate as a practical measure the 
appointment of humanitarian envoys by each of the permanent 
members of the Security Council, distinguished political or 
diplomatic figures who are able to work on the ground on the 
local access that is so essential to help the humanitarian aid 
that is being spoken of reach where it is needed.
    Second, the neighboring states, as you both said, are 
coping with unprecedented numbers of refugees. It is worth 
noting that a World Food Programme voucher is worth $13 a month 
for a family in Lebanon or Jordan, a middle-class family that 
has fled its home in Syria.
    For us, the priority must be for these neighboring states a 
multiyear strategic package that recognizes that these people 
are not going home soon. These refugees are not going home 
soon. In written testimony, we compare the package that is 
needed to the Marshall Plan, a multiyear plan which is not just 
an aid package but aligns private sector effort with public 
sector effort and addresses the economic conditions that people 
face not just the social conditions.
    Third, I am just back from Lesvos, the island in Greece 
where half of the refugees are arriving. I will not dwell on 
the responsibilities of European leaders and European citizens. 
Suffice it to say that they need to show both competence and 
compassion, both of which have been sorely lacking over the 
last few years.
    The three priorities in Europe are, first of all, to 
establish safe and legal roots to become a refugee in Europe. 
Without those safe and legal roots, you empower the smugglers 
who are currently charging 1,200 euros for the 6-kilometer boat 
trip across the Aegean. Secondly, to improve reception 
conditions, notably in Greece and on the routes into northern 
and western Europe. And thirdly, to implement a robust 
relocation plan within Europe to share the refugees between the 
different European states.
    Just finally, it is worth pointing out that European aid 
for the neighboring states does now exceed American 
humanitarian aid, and with the 1 billion euros that was 
announced last week at the European summit, that European lead, 
so to speak, which is currently $200 million will stretch to 
$1.2 billion.
    Finally, there is an important substantive and symbolic 
role for the United States in resettling refugees. IRC has been 
doing this for 80 years since Alba Einstein came to New York to 
found the organization in 1933. So far, just over 1,800 Syrians 
have been admitted, and with the greatest respect, the respect 
of someone who is a visitor to your country, even though I work 
here now but yet not a citizen, I would say that this 1,800 
figure is not fitting for the global leadership role that the 
United States has played over a very long period in refugee 
resettlement. The administration's commitment to take 10,000 
citizens remains a limited contribution to the global effort.
    And we recommend three practical steps.
    One is to raise the ceiling, the number of Syrians who are 
allowed in. And in the course of the questions and answers, I 
hope we get to explain why the figure of 100,000 has been 
reached, 100,000 refugees to be admitted over the next year, 
and how that speaks to the global need.
    Secondly, to fund that drive properly, including in the 
Department of Homeland Security where we strongly support 
effective security screening and can speak to that.
    And thirdly and something that has not had proper coverage 
I think is the scope for expanding access through family 
reunification schemes for Syrian American communities who are 
in this country across the country and have grandparents, 
cousins, relatives in Syria who want to come and join them. 
This is a DNA-based family reunification scheme that I think 
could offer a practical and short-term way of circumventing 
some of the delays that have plagued the program.
    So, Mr. Chairman, I am very grateful for this opportunity 
to speak with you. I deliberately curtailed my remarks and very 
much look forward to a real dialogue. Thank you very much.
    [The prepared statement of Mr. Miliband follows:]

           Prepared Statement of the Rt. Hon. David Miliband

    Chairman Corker, Ranking Member Cardin, and distinguished Senators, 
I would like to thank you for your decision to hold this full committee 
hearing on the epic displacement crisis unfolding in Syria and the 
broader Middle East. For the purposes of my written and oral testimony, 
I will focus on Syria--the epicenter of the region's humanitarian 
crisis--but am happy to take questions on other pressing emergencies in 
the region including Iraq and Yemen.
    There is urgent need for renewed international leadership in both 
resolving and responding to the Syrian crisis, and by necessity that 
means deep involvement by the United States (U.S.). The Syrian crisis 
has spilled onto the shores of Europe for two reasons: because of the 
magnitude of violence and threats to civilians in Syria, and because of 
the pressure in neighboring states. The mismatch between need and help 
for civilians, both in Syria and in the countries that surround it, is 
vast and growing. What was a civil conflict within one state has 
evolved into not just a regional human catastrophe of major 
proportions; it is also a defining geopolitical disaster for the Middle 
East.
    The International Rescue Committee (IRC) has a unique vantage point 
from which to offer perspective on the crisis. IRC is working inside 
Syria; in the four major refugee receiving countries that surround it--
Lebanon, Jordan, Iraq, and Turkey; on the island of Lesbos, which is 
the arrival point of over half of the hundreds of thousands of Syrians 
and people of other nationalities seeking asylum in Europe through 
Greece; and finally, IRC resettles refugees in 26 cities across the 
United States, including Syrians who have been given the opportunity to 
start their lives anew in this country. We witness the full arch of 
this crisis, from Aleppo to Beirut to Lesbos and Los Angeles. I hope to 
use the occasion of this testimony to pay tribute to the extraordinary 
efforts of IRC staff and our partner organizations, and highlight the 
vital contribution of aid workers from all the many organizations 
responding to the crisis in Syria, some of whom have paid with their 
lives.
    Attention to Syrian refugees has peaked in the last month, with 
stunning images in the news headlines of people floating at great risk 
to safety across the Mediterranean and literally walking across Europe 
in search of asylum. While not all of the asylum seekers are Syrian, 
they comprise the majority. Their sheer numbers and the perilous 
journey they take to escape suggest the Syria crisis is at a tipping 
point. IRC, amongst others, has long warned that the barbarism inside 
Syria, in which civilians are trapped in a war without law between 
government forces, the Islamic State of Iraq and Syria (ISIS) and other 
parties to the conflict, would spill over. It has now done so in many 
ways, evident in the extreme pressure that hosting 4 million refugees 
has placed on neighboring states, in the connections between the 
conflict and displacement scenarios in Syria and Iraq, and finally in 
the onward journey out of the region to Europe.
                              inside syria
    The figures of death, destruction, and displacement in Syria are 
shocking. The brutal, seemingly endless violence that has consumed the 
country since 2011, spread across its borders, and sucked in weapons 
and fighters from across and beyond the region, has claimed at a 
minimum 240,000 lives (the number is widely believed to be twice this 
many) and left every second Syrian displaced. Satellite imagery reveals 
that just a fifth of Syria's prewar lights remain on--such is the 
devastation wrought by shells, rockets and barrel bombs. In places like 
Aleppo, that figure is over 95 percent. Half the country's population 
have abandoned their homes.
    There is a chasm between the needs of Syria's civilian population 
and the help they are receiving. It continues to grow. Global 
contributions are not keeping pace with needs, which have grown 
twelvefold since the beginning of the crisis and more than 30 percent 
in the last year alone. While food, water, shelter, health care and 
sanitation services are desperately required, last year's U.N. appeal 
to meet basic needs inside Syria was only 50 percent supported--down 
from 68 percent in 2013. Only 34 percent of need inside Syria in 2015 
has been committed so far.
    The unanimous adoption of U.N. Security Council Resolution 2139 
(UNSCR 2139) in February 2014--no small feat given the intractable 
nature of the Syria issue on the Security Council--brought with it much 
needed hope for people in Syria and across the Middle East. In the 
resolution, the Security Council called for an urgent increase in 
access to humanitarian aid in Syria and demanded that all parties 
immediately cease attacks against civilians--including through the use 
of barrel bombs--and lift sieges of populated areas. In July and 
December 2014, the Security Council adopted two additional 
resolutions--2165 and 2191--which, among other things, authorized U.N. 
aid operations into Syria from neighboring countries without the 
consent of the Syrian Government. And yet, whereas 1 million people 
inside Syria required humanitarian assistance in 2011, that number now 
stands at 12.2 million; among them some 7.6 million people forced to 
flee, but still trapped inside Syria's borders.
    By blocking civilian movement, attacking aid convoys, kidnapping 
humanitarian personnel, and rejecting or miring in redtape official 
requests for access, the parties to the conflict are disrupting the 
delivery of lifesaving aid to 40 percent of those in need. All told, 
some 4.6 million people are currently languishing in areas defined by 
the U.N. as ``hard-to-reach''--an increase of more than 1 million from 
this time last year. Over 422,000 people are completely besieged, cut 
off from food, water, and medicine, their lifelines choked, and escape 
routes blocked. A key component of UNSCR 2139--protecting civilians 
against indiscriminate attacks--is still sorely lacking, with 
government forces' increased use of barrel bombs, and opposition 
groups' use of explosive weapons.
    IRC's eight decades of work in the world's war zones and disaster 
settings have not lessened the shock of what has befallen the Syrian 
people and their neighbors. However, what is even more shocking is the 
lack of a plan--or effort to create a plan--to bring the suffering to 
an end. It is humanitarians' job to staunch the dying, but it is only 
political action that will stop the killing. The political will and 
diplomatic energy aimed at securing an end to the war--and minimizing 
the impact of the fighting on civilians--have ebbed to low levels. Yet 
the longer the conflict goes on, the worse the options become. It is 
not the place of a humanitarian organization like IRC to advocate on 
military tactics. However, we have an intense stake in not only seeing 
humanitarian assistance make it to everyone who needs it, but also in 
the causes of humanitarian distress being addressed. A policy that 
truly puts civilian protection at its heart would leverage all 
diplomatic and political channels to curb the violence and bring hope 
of an end to the war.
    ``Friends of Syria'' meetings once drew more than 100 nations. 
Today, the forum has been hollowed out to a core of less than a dozen 
countries. Early Arab League proposals, former U.N. Secretary General 
Kofi Annan's six-point plan, and the Geneva II conference of January 
2014, yielded minimal results, but there was at least a sense of 
commitment and grim determination. There are a few developing efforts 
toward national reconciliation through the establishment of an 
``international contact group'' and the efforts of U.N. Syria Envoy 
Staffan de Mistura. However, if political and diplomatic vigor is not 
placed into these processes over a sustained period of time (and 
against all odds), the crisis will further metastasize.
    IRC would put forward the following recommendations to the 
committee and U.S. policymakers regarding the crisis in Syria:

  <bullet> Protect civilians. There is an urgent need for the U.N. 
        Security Council to establish a mechanism to track and 
        publically expose indiscriminate attacks by any means against 
        civilians, including barrel bombs, car bombs and mines, as well 
        as the use of besiegement, and to lay down clear consequences 
        for violators. Ending aerial bombardments of civilian areas was 
        highlighted by the U.N. Security Council in its resolutions: 
        civilian protection means turning words into action.
  <bullet> Access the hard-to-reach and besieged. Increasing 
        humanitarian access to those in need--particularly the hard-to-
        reach and besieged--requires constant and unabated attention at 
        the highest levels. The U.S. and other countries with leverage 
        on parties to the conflict need strongly and consistently to 
        press the belligerents to allow unimpeded cross-border aid, and 
        to allow aid to pass into or through conflict zones. 
        Humanitarian Envoys--senior diplomats with the backing of their 
        head of state--should be appointed by permanent members of the 
        Security Council and regional players to focus relentless 
        attention to humanitarian access and protection obstacles in 
        Syria, and actively seek ways to address them through bilateral 
        and multilateral channels. They would advocate for the full 
        implementation of U.N. Security Council resolutions, and would 
        work in tandem with all relevant parts of the U.N.
  <bullet> Provide enough aid to meet need. The United States has been 
        a leader in the humanitarian response to the situation in 
        Syria. However, the funding provided simply is not keeping up 
        with the ever-growing need for life-saving assistance. As long 
        as the crisis goes on and the international community 
        collectively fails to find a solution to it, ensuring 
        humanitarian assistance is available to those whose lives have 
        been shattered by this conflict is the minimum that we must do.
                           syria's neighbors
    It is not only Syrians themselves who have borne the brunt of the 
country's conflict, but the neighboring countries which now host over 4 
million refugees. In exile for years now, with their economic and 
personal assets long depleted, Syrian refugees live on the margins and 
are in desperate need of food, water, shelter, and education. There is 
often reference to ``refugee camps''; but the vast majority of Syrians 
are not in camps. In Lebanon most live in decrepit dwellings or tented 
settlements that expose them to the elements and insecurity. In Jordan, 
tens of thousands of families live below the absolute poverty line. 
Rent accounts for more than half of refugees' monthly expenses, forcing 
parents to send their children to work long hours for meager pay. A 
2015 assessment found that 86 percent of Syrian refugees outside of 
camps in Jordan were living below the Jordanian absolute poverty line 
of $95 per person per month.
    The impact upon Syria's neighbors of receiving such a massive 
influx of refugees cannot be overstated and they deserve great credit 
for their hospitality and sacrifice. Turkey has become the largest 
refugee-hosting country in the world, and last autumn put the cost of 
hosting Syrian refugees since April of 2011 at $4.5 billion--a figure 
that will have only grown in the last year. In Lebanon--a country with 
a host of preexisting tensions and no official government of its own--
Syrians now constitute somewhere between a quarter and a third of the 
population, making it the highest per capita refugee hosting country in 
the world. The World Bank estimates that its basic infrastructure will 
need investment of up to $2.5 billion just to be restored to precrisis 
levels. Jordan, one of the most water-starved nations on the planet, 
hosts nearly 630,000 registered refugees; proportionally equivalent to 
the United States absorbing the entire population of the United 
Kingdom. The Jordanian Economic and Social Council has stated that the 
cost to Jordan per Syrian refugee is over $3,500 per year and the 
direct cost from the beginning of the conflict is expected to rise to 
$4.2 billion by 2016.
    The education of Syrian refugee children is probably one of the 
best illustrations of the strain that the influx has placed on 
surrounding countries and the failure of the humanitarian aid system to 
keep up. There are an estimated 400,000 children among the more than 
1.1 million Syrian refugees registered in Lebanon. The ability of 
Lebanese schools to absorb these children has been limited by the scale 
of the task. Most have instituted second shifts to accommodate Syrian 
children. But in the 2014-2015 school year, only 37 percent of Syrian 
refugee children ages 6-14 were enrolled in school. The Lebanese 
Education Minister recently announced a ``Back to School'' initiative--
funded at $94 million by U.N. agencies and international donors--that 
will double the number of places for Syrian children to 200,000. This 
is welcome news, but leaves another 200,000 Syrian children out of 
school this year and on their way to becoming what is frequently 
referred to as a ``lost generation.'' International and national 
nongovernmental organizations (NGOs) can continue to play an important 
role in providing educational opportunities to many of the Syrian 
refugee children who will not be reached by the ``Back to School'' 
program; they should not only be allowed, but vigorously encouraged and 
funded to do so.
    Refugee hosting countries' public services, economies, and 
resources are creaking under this strain and their social fabrics are 
fraying. As a result, neighboring governments are now taking steps to 
restrict the flow of refugees into their territory with many of the 
formal and informal border crossings out of Syria often closed to 
civilians seeking safety. Hundreds of thousands of people are estimated 
to be living in camps on or near the borders of neighboring countries, 
unable to flee Syria. Increased and costly administrative regulations 
to renew residency permits have forced many families to live illegally 
and precariously. There are reports of refugees being forcibly 
repatriated to Syria, sometimes over missing papers and the space for 
refugees within the region--their ability to access essential services, 
or earn a living--is shrinking. Lebanon is cracking down on illegal 
work; Jordan has halted free health care.
    With the asylum space for millions on the line, it is stunning how 
poorly funded the U.N.'s humanitarian Regional Response Plan has been. 
It was just 64 percent funded in 2014, down from 73 percent in 2013. 
The current year seems to be shaping up for yet another decline, with 
only 45 percent funding as we head into the final quarter of 2015. As a 
result, some services are being scaled back, despite the growing need. 
For example, since the beginning of the year, the U.N.'s World Food 
Programme (WFP) has been forced to reduce the number of food voucher 
recipients in refugee-hosting countries from 2.1 million to around 1.4 
million. Last month, 229,000 of 440,000 Syrian refugees living outside 
camps in Jordan stopped receiving food vouchers from WFP. The value of 
food vouchers distributed to Syrian refugees in Lebanon has been 
slashed in half. The maximum voucher amount is now $13.50 per person 
per month, down from $27 in 2014.
    With much less to feed their families, desperation among Syrian 
refugees is rising, forcing them into desperate measures--including 
begging, child labor, low-wage and unregulated labor, survival sex, 
early marriage and increased indebtedness. IRC would advocate that 
currently available resources be provided as much as possible through 
cash transfers, allowing refugee families to pay for rent, food, 
medical care and other urgent needs as access to public services is 
restricted and humanitarian aid programs continue to shrink. Another 
critical area of focus is vocational training for youth and creating 
livelihoods for Syrian families so they can support themselves.
    Finally, it is important to come to terms with the sobering fact 
that these refugees will not be returning home any time soon. Given 
international assistance has not been enough to meet the needs to date 
and is likely only to further diminish as this conflict drags on, it is 
of paramount importance that opportunities are made available for 
Syrian refugees to work in the countries to which they have been 
displaced. Employment laws in the region either leave Syrians to work 
illegally in the shadows--subject to exploitation and abuse--or best 
case in low levels of employment that are open to them. Not only is it 
a waste to let the human capital of these refugees go untapped, but 
allowing them to work is a key part of a strategy to make sure they 
thrive and contribute to the societies to which they have been 
displaced.
    IRC recommends the following in response to the influx of Syrian 
refugees into neighboring countries:

  <bullet> Aid: Increase international humanitarian assistance. There 
        are challenges to getting aid to those who need it in certain 
        parts of Syria, but there is no excuse for it not to reach 
        those who manage to make it out. Providing this assistance 
        ensures Syrian refugees who flee danger do not wind up in 
        situations of abject poverty and exploitation. The U.S. has 
        contributed $4.5 billion to the Syrian response over the course 
        of the conflict--this assistance is vital and welcome, but it 
        pales in comparison to the sheer scope of need generated by the 
        crisis. The U.N. has called for $7.4 billion for 2015 alone.
  <bullet> Economics: Create a ``Marshall Plan'' for the region. After 
        World War II, the Marshall Plan pulled Europe out of post-war 
        devastation and laid the foundations for peace as well as 
        prosperity. Public and private sector came together in an 
        unprecedented drive. At that time the U.S. committed 
        approximately $13 billion, or 3 percent of GDP. The magnitude 
        of the Syria Crisis necessitates a proportionate response. 
        Whether by this name or another, the international community 
        must coalesce around a large scale, multicountry economic plan 
        to buttress the governments and communities hosting the lion's 
        share of Syrian refugees. Institutional and infrastructural 
        support to ensure that these countries can provide basic 
        services like health care and education without buckling under 
        the additional strain is a critical part of the mid-long term 
        strategy to respond to the Syria crisis. This could be financed 
        through public/private partnerships and serve as a framework to 
        bring a wide array of actors along--including the Gulf State 
        governments. The World Bank, U.N. Development Program, 
        bilateral development donors and other international financial 
        institutions should reorient their work to support the 
        economies of conflict-affected states like Jordan and Lebanon 
        to help them weather the shock. This type of large-scale 
        support to governments is critical to maintaining the asylum 
        space for refugees and ensuring that the events in Syria do not 
        further destabilize the region.
  <bullet> Helping the Most Vulnerable: Take a ``needs-based'' regional 
        approach to displacement. Iraqis internally displaced by chaos 
        wrought by ISIS are living side by side with some 250,000 
        Syrian refugees. Effort must be made to provide support in 
        these areas based on need--not displacement status--to ensure 
        we do not end up in a situation with refugees receiving 
        assistance while Iraqis in a similar or worse situation receive 
        much less. This includes assisting the communities in the Iraqi 
        Kurdistan Region--one of the only safe places to flee--which 
        are currently hosting a massive influx of people from their own 
        country and their neighbor to the West.
                       refugee influx into europe
    Given the dire scenario outlined above, it should not be surprising 
that refugees from Syria are risking life and limb to find asylum in 
Europe. The waves of people arriving on the shores of European member 
states have made a highly informed calculus on where their chances of 
survival are best and determined the perilous journey is their safest 
option. An estimated 477,000 people have arrived by sea in 2015, the 
vast majority of them in Greece. An estimated eight people a day die 
just among those traveling between Turkey and Greece, including 
children, which the world was so painfully reminded a few weeks ago 
when the photos of Aylan Kurdi surfaced in the world's newspapers and 
social media.
    I just returned from visiting Lesbos, an island of 90,000 people 
where over half of all arrivals into Greece come ashore. In June, 200 
refugees were arriving every day. When I visited the figure was 2-3,000 
people a day. Last week the figure reached 6,000 on one day. IRC has 
established programs there to provide assistance in the form of clean 
water, sanitation, information services and transportation. Previously, 
families that had often arrived soaking wet and with few worldly 
possessions were walking the 40 kilometers north from their arrival 
points to register in the capital of Molyvos. Their ongoing journey, as 
we witness through dramatic images at train stations in Hungary and in 
the face of razor wire fences and tear gas on the borders of European 
Union (EU) member states, only becomes more fraught with obstacles.
    An estimated 84 percent of the people arriving in Europe are from 
the top ten refugee producing countries in the world, including 
Afghanistan where the IRC also has programs to address the ongoing 
humanitarian fallout from the conflict. However, Syrians represent 54 
percent of the arrivals in Europe. Therefore, as the Syria crisis 
continues to uproot millions of people and asylum space in the broader 
Middle East closes, the arrivals to Europe will continue. It behooves 
European leaders to respond with both compassion and competence. This 
situation will continue to be a test of the strength of character of 
the EU as an institution and its ability to manage a complex crisis in 
the light vocal opposition on the part of a few member states. EU 
member states should:

  <bullet> Establish safe and legal options for refugees to come to 
        Europe. Refugees will continue to fall prey to smugglers and 
        face life-endangering options if more legitimate ones are not 
        available to them. The tools are wide-ranging and should be 
        maximized to increase opportunities for safe entry. These 
        include: more proactively resettling refugees from the 
        countries surrounding Syria; the flexible use of family 
        reunification admission; increasing work and education visas; 
        and private sponsorship schemes.
  <bullet> Improve reception conditions, particularly in Greece. 
        Arriving refugees must be managed with dignity, especially in 
        light of the circumstances they have already endured. The 
        humanitarian response effort in arrival countries like Italy 
        and Greece and countries of transit like Hungary and Croatia 
        must be financially and technically supported by EU member 
        states. The response, including rescuing people at sea, should 
        be well-coordinated and information should be provided to 
        arriving refugees on their options.
  <bullet> Implement a robust and well-monitored relocation plan. The 
        EU's decision last week to relocate 120,000 refugees--on top of 
        the 40,000 already agreed to--between member states should be 
        done in an equitable fashion and every effort should be made to 
        accommodate the wishes of refugees to be with family members. A 
        proportional distribution plan should be followed to have an 
        equitable split between member states. States should ensure 
        refugees are integrated into their societies and that they live 
        up to the commitments in the plan including those to housing 
        and social services. When considering relocation of refugees to 
        states that are reluctant to receive refugees or only receive a 
        small population, liaison officers must be present to monitor 
        adherence to asylum standards. Where refugee families are not 
        housed together in the same country, they should be allowed to 
        travel within the Schengen zone to visit their family members, 
        relying on the fact that social support will only be available 
        in the assigned country for the refugee (ensuring their 
        return). The same standards of data protection that apply for 
        all EU citizens should be carried out when biometric tracking 
        is used with refugees to ensure human dignity and privacy.
                      u.s. resettlement of syrians
    This brings us to the U.S. role in providing sanctuary to Syrian 
refugees. While the U.S. can and should encourage its European 
counterparts to respond to the refugee influx with fortitude and 
compassion, the best encouragement this country can offer is leading by 
example. To date, despite its relative leadership in providing 
humanitarian assistance to refugees from Syria, the U.S. has admitted 
just over 1,800 refugees through its refugee resettlement program. This 
is a disappointingly low number for a country which has been the global 
leader in refugee protection since World War II and served as a beacon 
of hope to people around the world facing persecution and violence.
    Resettlement is a life-saving option to highly vulnerable families 
living on the margins of survival in places like Jordan or Lebanon. 
However, beyond its immediate value to individuals who have suffered so 
much, it is a signal of solidarity and shared responsibility to other 
countries that have absorbed the vast majority of Syrian refugees. 
While a number like 100,000--which is what the IRC recommends the U.S. 
take at a minimum in FY 2016 (see below)--is still only a small 
fraction of the total refugee population, its value is not lost on 
countries like Lebanon, a country of just 4 million which has absorbed 
over a million people in the last 4 years. The signal the resettlement 
number sends to these countries is a critical part of maintaining 
asylum space and provides the U.S. and European countries the 
credibility they need to encourage Syria's neighbors to keep their 
borders open and improve conditions for those refugees who remain in 
the frontline states.
    During the last international Syrian resettlement pledging 
conference in December 2014, the U.N. Refugee Agency sounded the alarm 
bell when it said that roughly 10 percent of the Syrian refugee 
population (400,000 people) were particularly vulnerable and needed to 
be resettled. This was set as a medium-term, multiyear benchmark. The 
U.S. has traditionally been the largest resettlement country in the 
world, possessing the geographic and population size as well as the 
know-how to absorb larger numbers than much smaller wealthy countries. 
As a result, it has traditionally taken at least 50 percent of all 
resettlement cases referred by the U.N. Refugee Agency. Given this 
tradition, the IRC is calling on the U.S. to provide resettlement for 
100,000 Syrian refugees in the first year of a multiyear program, to 
ensure that the global community meets a goal believed necessary to 
save lives and stabilize the situation in the region.
    The IRC has long experience of resettling refugees across the U.S. 
Our annual figure is around 10,000. This is a country proudly built on 
the labor of refugees and immigrants. It is the same country that 
pulled together not too long ago in a massive effort to rescue over 1.2 
million southeast Asian refugees through sheer force of political will 
when the circumstances demanded it. There is ample precedent for 
admitting and successfully integrating refugees on a much larger scale, 
when the political will and compassion is present. Large numbers of 
inquiries have flowed into IRC's 26 field offices around the U.S. over 
the last several weeks from the American public ranging from ``where do 
I send the collection we've taken at church?'' to ``how can I open my 
own home to a Syrian refugee family?'' This is just one small reading 
that demonstrates the compassion and willingness to welcome that is 
present in American communities, and that people are hungry to live up 
to the principles that make this country great.
    The IRC strongly supports effective and efficient security 
screening for refugees entering the United States. Refugees are, in 
fact, the single most vetted population entering the country, and the 
U.S. Government has spared no efforts to continuously improve security 
checks to safeguard the integrity of the program. There are ways that 
the administration can admit refugees in efficient and expeditious ways 
without compromising the integrity of security screenings.
    Finally, the U.S. has one untapped option to rapidly and safely 
increase Syrian resettlement: creating family reunification options for 
Syrian-Americans and other lawfully present Syrian immigrants. Many 
Syrians have a relative here in the U.S. who is desperate to take them 
in, just as Aylan Kurdi's aunt in Canada was attempting to do. 
Currently, only Syrians who arrived to this country as refugees 
themselves are eligible to file for family reunification--a very small 
number considering just over 1,800 have been admitted to date. Syrian-
Americans, many of whom immigrated to this country decades ago or were 
born here, are not eligible to apply for their families through the 
refugee program. We are not fully tapping into this option and are 
neglecting the opportunity to aid Syrian-Americans in bringing their 
family members to join them in safety in the U.S. These families would 
play a large role in helping Syrians integrate successfully here and 
moving them to self-sufficiency.
    The IRC recommends in regard to the resettlement of Syrian refugees 
in this country, the U.S. should:

  <bullet> Raise the U.S. refugee admissions ceiling to allow for at 
        least 100,000 Syrian refugees to enter in FY 2016. The 
        President should raise the overall U.S. resettlement ceiling to 
        200,000, allowing the space in the global program for 100,000 
        Syrians without compromising the urgent protection needs of 
        refugees from other troubled regions of the world.
  <bullet> Increase resources to make this happen. The agencies and 
        offices that manage different components of the refugee 
        resettlement process should be provided adequate resources to 
        bring in additional Syrian refugees. This includes the 
        Departments of State and Homeland Security, the Office of 
        Refugee Resettlement in the Health and Human Services 
        Department, and other federal agencies that perform security 
        checks.
  <bullet> Expand access to family reunification for Syrians with ties 
        in the U.S. In order to make the 100,000 target feasible, the 
        U.S. should expand opportunities for Syrian Americans and other 
        Syrian immigrants lawfully residing in the U.S. to bring their 
        family members to safety. It is time to think outside the box 
        and use the tools that exist to expand the resettlement program 
        to include family reunification. There is ample precedent for 
        this approach, most recently for Iraqis, Haitians, and Central 
        American minors. This is the single easiest, efficient and most 
        cost-effective way to bring large numbers to safety.

    I thank you and the members of the U.S. Senate for the opportunity 
to provide IRC's perspective on the complex humanitarian challenges 
facing people in the Middle East and indeed the rest of the world at 
this time. I look forward to answering your questions.

    The Chairman. Thank you very much.

     STATEMENT OF DR. MICHEL GABAUDAN, PRESIDENT, REFUGEES 
                 INTERNATIONAL, WASHINGTON, DC

    Dr. Gabaudan. Mr. Chairman, Ranking Member Cardin, and 
distinguished members of the committee, thank you very much for 
holding this hearing. And we certainly subscribe entirely to 
the way you have both framed the question of the Syrian crisis.
    The chaos, distress, and drama we have seen on our screens 
over the past months are nothing but a reminder that we have 
collectively failed to respond appropriately to the needs of 
the victims of the conflict in Syria over the past year despite 
the tremendous amounts of funding that have been provided. And 
I want to thank the United States for being a leader in 
humanitarian funding to the Syrian crisis and certainly 
Congress for having made the right appropriations to grow 
humanitarian accounts of this country.
    RI has undertaken 12 missions over the past few years in 
all the countries holding Syrian refugees and ones inside 
Syria. We have looked at how displacement has evolved, how the 
situation of refugees has changed over time, and unfortunately 
how the funding has been drying up.
    The drivers of displacements are multiple from the actions 
of the Shia militias at the beginning. We all remember the 
images of Homs and Hama, to the development of tremendous 
military operations by the Assad regime, to the rise of 
extremist groups, but also to the tremendous deteriorating 
socioeconomic situation in Syria which makes life unsustainable 
for many people who had to cross outside to find some ways to 
sustain themselves.
    However, today when you talk to refugees in southern 
Turkey, in Jordan on what is the primary reason why they move, 
they all had the same answer. It is the barrel bombings over 
markets, over schools, over medical facilities. Another NGO has 
reported that the month of August saw the largest number of 
medical personnel killed by these shellings and barrel bombs.
    The response to the crisis in neighboring countries has 
been, I must say, remarkable. We have seen very few crises in 
the world where borders have remained open for so long, where 
governments have accepted the refugees spread out among the 
population. There are very few refugees in camps. Most refugees 
are living in an urban setting mixing with the local 
population. Services have been accessible to refugees. National 
services of medical and schools have been accessible to 
refugees. And quite remarkably in all the interviews we had 
with refugees, there is a rather low reporting of abuses by 
authorities. This is not something we experience in many places 
where refugees seem to be targeted much more than we have seen. 
And I think we all have to recognize that Turkey, Lebanon, 
Jordan, Egypt, and Iraqi Kurdistan has done tremendous work in 
welcoming refugees.
    The international response has adjusted to the urban nature 
of the refugee situation. However, that urban nature creates 
some particular challenges because the impact of refugees on 
host communities is much stronger than when you have refugee 
camps which are easier to manage. And we are seeing now that 
there is some erosion of the tolerance of the local population 
when they see the schools overburdened, access to medical 
facilities being dependent on very long queues, the price of 
rents for apartments or whatever they find where they can live 
going up and up and up, and even the price of basic food 
commodities, et cetera going up. So there is an impact on the 
local population that after 4 years starts to generate 
reactions of rejections or at least tensions with the refugee 
community.
    The humanitarian needs remain because many refugees are 
poor. What we have seen over time is refugees being pushed from 
poverty to misery. More begging is happening from Istanbul to 
Amman and on the border cities. There are children working 
because as the parents are not allowed to work, they do send 
their children to work. It is easier for children to work 
legally than for adults. We have seen lowering of the age of 
early marriage for women, which is a way for families to try to 
get some funds, and we see an increase in what we call sex for 
food and basically the trading of young ladies to just be able 
to feed their family. All these are absolutely the trappings of 
the pauperization of the refugee population.
    There were not many indications that people wanted to move 
until the end of 2013. When we talked to people in the first 
years, they said we go back to Syria as soon as we can. It is 
only at the end of 2013 that the mood started changing. In 
2014, they mostly moved through Egypt and Libya trying to get 
the smuggler's boat to Italy, with the sort of disasters we 
have seen and tremendous amount of risk for them. But the 
numbers remain sort of tolerable perhaps compared to what we 
have seen in 2015 where smugglers moved their route through 
Greece, probably making it much cheaper and therefore bringing 
a much higher number of people who wanted to leave.
    The poverty they have suffered, as their own resources were 
depleted over time, is certainly a main factor. For many 
people, the lack of education for children is also a motive for 
trying to move forward to Europe. But also, as I mentioned, the 
fact of their welcome is drying up. Governments now realize 
that they have a huge amount of people that are getting poorer 
and poorer and being like a lead ball on their own 
developments. And local populations, as I said, are starting to 
react, and we had riots in different countries against the 
refugees. That outflow will not stop because either the 
Europeans get their act together, which we hope they will, and 
then more people try to leave or it stays as it is now. And we 
have seen the difficulties they have faced to date have not 
really staunched the flow. So unless we go back to the root 
causes, which is how we address the situation of refugees in 
first asylum countries, I think the regional instability will 
keep on.
    We have to look at increasing support to humanitarian 
funds. It is true that funds have been available over the years 
in larger quantities, but they have not kept up with the needs. 
And actually what we have seen over the past year is a 
proportion of the U.N. appeals that have been funded has gone 
down and key services like education, et cetera, have been 
actually cut. In Jordan, food rations have been cut by half in 
the last few months. We have to maintain support to 
humanitarian needs, and we look certainly forward to U.S. 
leadership in this field.
    But we need to activate a much stronger response to the 
development needs of neighboring countries. Most of the 
challenge they face cannot be dealt by humanitarian agencies. 
They need development money. They need bilateral aid, but the 
key drivers of big development are the development banks. The 
High Commissioner has done due diligence in trying to approach 
the banks, but I think it is time to look at ways for the 
governing bodies of these banks to put this sort of situation 
as part of their regular mandate. It is not just a question of 
humanitarian response. It is a question of guaranteeing the 
stability of the neighboring countries to Syria. And I think 
this is why we see now these host countries becoming extremely 
nervous.
    Resettlement is important because it offers an orderly way 
of leaving the country. However, even with the highest number 
we can dream of, it is going to touch a small percentage of the 
refugees and it cannot leave us neglecting the needs on 
development that are humanitarian.
    And finally, Mr. Chairman, we hear that there are some 
attempts to reinvigorate the peace process. We have always 
believed that there was no real military solution to the 
conflict and that some peace had to be negotiated. I think it 
is very important that the people who come to the negotiating 
table must make a much stronger commitment to protection of 
civilians. Then we must see a stop to the barrel bombings, et 
cetera, if we want to be able to talk to people that are going 
to be credible in the peace process by the refugees. If this 
does not happen, we will not see at any time any possibility of 
return.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Dr. Gabaudan follows:]

               Prepared Statement of Dr. Michel Gabaudan

    I would like to take this opportunity to thank Chairman Corker, 
Ranking Member Cardin, and the members of this committee for holding 
this important hearing today. Refugees International (RI) is a 
nonprofit, nongovernmental organization that advocates for lifesaving 
assistance and protection for displaced people in some of the most 
difficult parts of the world. RI does not accept any government or 
United Nations funding, which allows our advocacy to be impartial and 
independent.
    Based here in Washington, we conduct 12 to 15 field missions per 
year to research displaced populations. Our ongoing reporting on the 
Syrian crisis includes my recent trip to Turkey to look at both cross-
border assistance as well as birth registration.
    Since spring 2011 RI has conducted a dozen missions in the region, 
and has been able to witness the evolution of the situation of Syrian 
refugees in Jordan, Lebanon, Turkey, Egypt, and northern Iraq. I shall 
never forget the blank stares of children who fled the horrors 
inflicted upon civilians in Hama and Homs at the beginning of the 
conflict. Since then the causes of displacement have multiplied, with 
heavy military operations, the advent of various extremist groups, and 
the seriously deteriorating socioeconomic conditions all contributing 
to the largest movement of refugees and internally displaced people in 
the last three decades. But today, as many Syrians will tell you, it is 
the barrel bombs of the regime, dropped on civilian centers such as 
markets, schools, and health facilities, that represent the most 
compelling cause for the continued displacement of women, children, and 
men from their homes. The conflict has to date has killed over a 
quarter million people, displaced more than half of the preconflict 
population, and sent over 4 million refugees across the borders.
    As we have watched the causes of displacement evolve, we have also 
watched with frustration as assistance to the displaced has shrunk 
alarmingly over the years and is not keeping pace with the ever-growing 
needs, to the point where Syrians are now risking their lives to get 
out of the region--and even returning to Syria--in order to find better 
opportunities for a future. Funding shortages and aid agencies' 
inability to keep up with the desperate emergency needs even 4\1/2\ 
years on have led to secondary migration flows and the need to work on 
emergency aid and long-term stability at the same time, but with few 
resources at our disposal.
    Countries hosting the largest numbers of displaced Syrians (Egypt, 
Iraq, Jordan, Lebanon, and Turkey) have made enormous efforts in 
receiving and assisting the 4 million Syrians who have collectively 
crossed their borders over the past 4 years. Support for Syrian 
refugees is estimated to amount to $7.5 billion from Turkey alone. But 
in spite of the scale of the needs, many other countries have not been 
able to maintain their support for the survivors of the crisis. The 
recent influx of refugees to the European Union has brought some much-
needed attention back to the displacement caused by the conflict in 
Syria. But we need to recognize that the European crisis is merely a 
symptom of the world's collective failure to respond to the problem 
both politically (a peace process is nonexistent) and socially (aid to 
refugees and IDPs is well below basic requirements).
    Over the course of 4\1/2\ years, assistance by the United States to 
the Syrian crisis, which focused on the humanitarian needs of Syrians 
both inside and outside the country, has been absolutely critical. Most 
recently, the U.S. Government contributed more than $400 million in 
additional humanitarian assistance for the Syria crisis. I want to take 
this opportunity to thank Congress for supporting core humanitarian 
funding accounts, such as Migration and Refugee Assistance (MRA) and 
International Disaster Assistance (IDA). Continued U.S. aid is 
essential, because although the world now considers Syria a long-term 
conflict and the Syrian refugee crisis a protracted one, Refugees 
International's recent work in the region indicates that emergency 
humanitarian aid is still a desperate need.
                   life in host countries for syrians
    Until about 18 months ago, most Syrians RI spoke with in the region 
were intent on returning home as soon as possible. Even knowing that 
their houses and property were destroyed and that it would hard to 
build a new life, they wanted to stay as close to home as they could in 
order to make returning faster and easier. But as their time in exile 
grew longer, people began to say that they saw no future for themselves 
in their host countries. This change of attitude happened at roughly 
the same time that large numbers of Syrians began leaving from the 
north coast of Egypt to make the journey across the Mediterranean to 
Europe; some even went over land to Libya in order to get on boats 
there. They knew these trips were dangerous, they knew that hundreds of 
people who had gone before them had drowned, and they knew that they 
could be detained in attempting to leave Egypt. But all of this 
appeared to be a better option than remaining in a place where they saw 
no future for themselves. During RI's mission to Egypt in spring 2014, 
Syrian refugees were saying that taking their chances in dangerous 
waters seemed more promising than remaining in Egypt. Some were even 
trying for the second or third time to make the crossing by boat.
    Another 18 months on, the migration routes and the people on them 
have changed. Today, the Syrians leaving for Europe by sea are 
embarking mainly from Turkey, but they are coming from across the 
region, where it has become more and more difficult to survive.
    The neighboring countries hosting so many of the Syrians have long 
been feeling the pressure of the influx of huge numbers of people, of 
the strain on infrastructure, and of the ever-decreasing support the 
world has been able to provide. It is important to note that the huge 
majority of Syrian refugees--85 percent--are not living in the camps 
that we hear so much about, but rather are in urban and rural areas 
trying to get by in the local communities that are often not better off 
than the Syrians. Almost 2 years ago in Jordan, RI, visited a rural 
area where poor Jordanians and Syrian refugees were living in the same 
difficult conditions. Already at that time, the Jordanians we spoke 
with had the same needs as the refugees--food, medical care, 
employment, children's education, but the majority of the assistance 
provided was going to their Syrian neighbors. How could such host 
communities reasonably be expected to absorb yet even more refugees? 
From the perspective of the Jordanians, at least the Syrians had the 
fallback of a refugee camp.
    Camps are, in fact, the option of last resort for handling refugee 
assistance, and it is commendable that there are so few formal camps 
for a population of this size. However, the fact that people are living 
side by side with the host communities makes it harder for humanitarian 
groups to find those in need, and practically impossible to separate 
the needs of the refugees from the needs of the hosts. The 
U.S. Government, the UNHCR, and their partners have all shifted focus 
to include greater attention to support for those outside of camps, but 
the scale of the task is enormous, and the numbers of people in need 
increase every day. Refugees and host communities are all sharing the 
same resources while facing the same struggles with health, education, 
and employment. The sheer numbers of Syrians make this even more of a 
challenge.
    Over a year ago in Lebanon, a Syrian mother told us about how she 
had pulled her teenage daughter from school to put her to work at a 
nearby local business. She had not been able to find work herself 
because the Lebanese host community where she lived was reluctant to 
hire Syrians in general, but children could often be put to work 
successfully because they were paid less and had fewer expectations 
than adults, either Syrian or Lebanese. Situations like this were 
leaving the Lebanese with the feeling that refugees were taking 
opportunities they wanted for themselves, even when those opportunities 
were far less than desirable.
    Inside Syria, despite three Security Council Resolutions supporting 
better access for humanitarian aid and the sustained efforts of Syrian 
civil society, INGOs, and donors, and as a result of the fluctuating 
nature of the conflict, with armed actors constraining free movement 
and the safety of aid workers, the efficient delivery of assistance 
remains a constant challenge
                support from the international community
    The financial reality of assisting so many displaced Syrians is 
beyond grim. Each year, the United Nations and its partners require 
more and bigger contributions in order to help more refugees. But each 
year, additional crises around the world demand attention and money 
from the same donors who now must somehow provide more aid without a 
simultaneous increase in how much money they have available.
    The results of this are readily apparent in the aid available to 
Syrians. Food rations have been cut, health services have dwindled, and 
education programs have been closed down. RI has seen more and more 
Syrians each year living on the streets in their host communities or in 
inadequate and even dangerous housing. In Lebanon, additional 
protection concerns arose with the shortage of aid. In addition to not 
having enough food or being evicted for not paying the rent, Syrian 
refugees can be arrested or detained for begging in the streets or 
working illegally.
    Other agencies have reported on increases in child labor as 
families run out of savings, in early or coerced marriage intended to 
protect young girls whose families can no longer support them, and in 
people returning to Syria when the help they need is not available. As 
many Syrians have told RI and other groups over the years, ``We can die 
here, or we can die at home.'' For the poorer families, as a result of 
depleted financial resources and increasing poverty, lack of hope to 
settle in first asylum countries, and absence of other durable 
solution, more people now appear to be choosing to brave the dangers of 
returning home.
    Beyond international financial support, the host countries 
themselves are worried about their long-term futures as they are being 
affected by hosting so many Syrian refugees. While it is not at all 
clear that refugees are the economic burden that many have suggested, 
it is also not clear how to make the most of the economic benefits they 
can bring. This is a main challenge in host countries, where citizens 
and refugees are seen to be competing for jobs in tight markets. Work 
permission for refugees is a politically and socially fraught issue in 
the region, and without an effective plan for livelihoods, those 
tensions simply increase. And while an informal labor market does 
exist, Syrian refugees in all the host countries in the region have 
regularly told RI about the exploitative nature of this option. Most 
recently, a Syrian mother of three in Jordan described how she had 
taken on several catering projects from home, and her futile efforts to 
get the businessowner to pay her after the work was done. She had tried 
to get regular work, but people did not want to hire Syrians, so she 
resorted to unofficial labor and was taken advantage of. It is a story 
we have heard countless times.
    The creation of livelihoods is one of several points--but arguably 
the most crucial one--where humanitarian aid and development assistance 
intersect. While there has been wide recognition over the past few 
years of the desperate need of development support for livelihoods in 
the main host countries and for the general involvement of development 
actors in the refugee response, how to create and implement such 
programs remains largely untested. And while these projects are being 
developed, refugees are facing more and more difficult circumstances 
and taking their next steps, literally.
                               next steps
    The inability to find a living situation that has a sustainable 
future appears to be driving Syrian refugees from the regional 
countries to more distant destinations like the EU. Tragically, many of 
them do not survive that journey across the sea, and those who do are 
not always welcome in Europe. This has been of tremendous concern over 
the past 2 months, and much has been made of the chaotic situation in 
Europe as it involves Syrians.
    However, as stated above, we need to recognize that the European 
crisis is merely a symptom of the world's collective failure to respond 
to the problem.
    The most serious situation, and the one that needs the most 
attention, is the poorest refugees in the neighboring countries: those 
who cannot afford to move and are trapped in growing poverty and 
misery, with little hope for the future. Most of these Syrians will 
never have the means to move on to Europe or North America. And in 
spite of current discussions in the media, most will never be 
resettled, or even be eligible for resettlement.
    Thus, we need to recast the approach to the Syrian crisis by:

          (1) Fully funding humanitarian appeals. The $4.5 billion 
        request for Syrian refugees is only 40 percent funded, and the 
        appeal for inside Syria has received even less money--only 33 
        percent. As I mentioned previously, the humanitarian support 
        the U.S. gives is essential, and the support it can prompt from 
        other donors is equally important;
          (2) Developing a ``Marshall Plan'' type of development 
        assistance to first asylum countries in order to ensure 
        refugees' impact on host communities is mitigated, a 
        comprehensive plan for educating refugee children is 
        implemented, and that livelihood programs are developed on a 
        large scale. The U.S. can play an important role here by using 
        its considerable governance weight with the development banks, 
        in particular, to encourage their involvement in the regional 
        response and reinforce the idea that host country development 
        is now an essential element of addressing the Syrian 
        displacement crisis;
          (3) Facilitating orderly departure from first asylum 
        countries through resettlement that must include the Gulf 
        States as receiving countries, in addition to the traditional 
        resettlement countries; and
          (4) Urgently renewing attempts at a peace process led by the 
        United Nations, including a dedicated attention to the 
        protection of civilians by the parties wishing to participate 
        in the process.

    New strategies to this ongoing emergency displacement crisis must 
begin now. Thank you and I look forward to your questions.

    The Chairman. Thank you very much.
    Ms. Lindborg.

STATEMENT OF NANCY LINDBORG, PRESIDENT, UNITED STATES INSTITUTE 
                    OF PEACE, WASHINGTON, DC

    Ms. Lindborg. Thank you. Good morning, and thank you, 
Chairman Corker, Ranking Member Cardin, members of the 
committee. I know a number of you have traveled to the region, 
and I greatly appreciate your focus and attention to this 
escalating humanitarian crisis.
    I testify before you today as president of the United 
States Institute of Peace, which was founded by Congress 30 
years ago specifically to look at how to prevent, mitigate, and 
recover from violent conflict. And we do so by working in 
conflict zones around the world with practical solutions, 
research, and training. There is clearly a deep connection 
between what we are seeing right now in the humanitarian crisis 
and conflict that has spun out of control and become very, very 
violent throughout the region.
    I agree wholeheartedly with both of my colleagues, and both 
of you have, aptly described what is a starkly terrible crisis, 
numbing statistics, and heartbreaking stories through the 
region. So let me use my time to look at four recommendations 
that I would make as we look forward. Most importantly, even as 
we seek solutions for the crisis in Europe and the resettlement 
that both Michel and David have talked about, I would urge that 
we use this moment to expand our commitment to providing 
assistance in the region and look at solutions in the region 
because even if Europe and the United States take the most 
generous number of refugees possible, that will only scratch 
the surface of this crisis.
    So, first of all, we absolutely must sustain and increase 
our collective commitments to meeting the most immediate needs. 
As we have heard, the number of commitments have decreased 
against the needs. Thank you to all of you for having supported 
a very generous U.S. commitment, about $4.5 billion to date 
since the Syrian crisis. But this is against a global backdrop 
of 60 million people currently forcibly displaced from their 
homes. There is a global burden that is stretching the 
humanitarian system, straining it to its limits. We need to 
ensure that not only does the United States continue its 
commitment, but that we get a larger collection of countries to 
help shoulder that burden. It consistently falls on a small 
number of countries. We need to expand the number of countries 
that are providing assistance.
    Secondly, we also need to ensure that humanitarian 
assistance is as effective and efficient as possible. We have 
seen, as Senator Cardin noted, that we continue to treat the 
problem as if the refugees will go home when, in fact, there is 
a 17-year average duration of displacement. We are often 
constrained by our institutional mandates, our structures, and 
by stovepiping from doing the kind of assistance that enables 
refugees not only to survive but to look for some sort of 
sustainable future, as well as providing support for the host 
communities who are heavily burdened by the huge numbers of 
refugees.
    I have recently returned from Iraq where I met with a 
number of civil society organizations and Kurdish officials in 
Iraqi Kurdistan where one in five people are now displaced. 
They have some 3 million displaced Iraqis who fled ISIS over 
the last year. Despite a huge mobilization to provide 
assistance to these folks, their infrastructure simply cannot 
cope, including their water systems, electrical systems, 
schools, and clinics. You have people who are sitting in camps 
and containers, squatting in apartments, studies interrupted, 
no way to make a living. They do not see a future for 
themselves. A number of the displaced Iraqis with whom I spoke 
want to go to Europe because they do not see a future for 
themselves. As one civil society activist told me, we have 
seven camps in Erbil. That is seven time bombs as people are 
sitting here month after month, year after year, with no work 
and no education.
    This is something that we need to look at seriously. And it 
is far worse as you move into Lebanon, Jordan, and Turkey in 
terms of the burden and the stretch on their infrastructure.
    So our assistance needs to focus more on education, on 
employment, on the kind of trauma counseling that can help 
people recover and on helping the communities bear the burden 
more effectively as we ask them to continue hosting.
    Thirdly, we can start now to help people return. In certain 
places in Iraq, there are opportunities to return, but we need 
to ensure we are helping communities deal with what could 
become cycles of conflict because of the mistrust that now 
exists between communities in the wake of ISIS. By working with 
communities to have the kind of facilitated dialogue that 
builds bridges, reduces tensions, and rebuilds social cohesion, 
we give people a better opportunity to return home without 
repeated cycles of conflict.
    Finally, in addition to pushing hard on the kind of 
diplomatic solutions that get at the roots of the conflict in 
Syria, I would also urge us to look more broadly at how to 
increase our efforts to provide the kind of development 
assistance that focuses on those places that are most fragile, 
whether they are weak, ineffective, or illegitimate in the eyes 
of their citizens, that are really the source of the flow of 
refugees, not just Syria and Iraq, but Afghanistan, Eritrea, 
Yemen, and Somalia, places where you have a web of hopelessness 
borne of conflict, oppression, and poverty. By focusing more on 
those areas, we have a better chance of managing conflict. At 
USIP, we say conflict is inevitable, but it must be managed it 
so that it does not become violent, it does not end up pushing 
people out of their homes and into the kind of crises that we 
see today.
    I look forward to your questions. Thank you.
    [The prepared statement of Ms. Lindborg follows:]

                  Prepared Statement of Nancy Lindborg

    Good morning and thank you, Chairman Corker, Ranking Member Cardin, 
and other members of the committee, for this opportunity to discuss the 
U.S. role and strategy in the Middle East in the midst of an escalating 
humanitarian crisis. Your attention to this complex and protracted 
crisis is important and very much appreciated.
    I testify before you today as the President of the United States 
Institute of Peace, although the views expressed here are my own. USIP 
was established by Congress 30 years ago with the mandate to prevent, 
mitigate, and resolve violent global conflict, and we do so by focusing 
on practical solutions, research, and training in conflict zones around 
the world.
    I have spent most of my career working on issues of democracy, 
civil society, conflict, and humanitarian response. These experiences 
have led me to the strong conviction that we as a nation must invest 
more in approaches and tools that help us interrupt the spin cycles of 
conflict that engulf so many countries; it is more urgent than ever to 
get ahead of crises before humanitarian needs escalate, before conflict 
becomes violent and, as we are seeing now, before violence forces 
millions of people from their homes.
    The roots of the current refugee crisis in Europe are in Syria and 
Iraq, as well as in Afghanistan, Eritrea, Somalia, Yemen--all places 
where violent conflict, oppression, and poverty combine to create a web 
of hopelessness. The journey from there to Europe is long, arduous, and 
shockingly dangerous. And yet, according to the European Union's border 
control agency, Frontex, more than 500,000 desperate people have made 
that journey this year, illuminating the distressing calculus that 
drives men, women, and children to risk their lives.
    The debate here and in Europe over how many refugees and migrants 
to accept hopefully will result in the greatest possible number of 
people restarting their lives in safety. We can certainly afford to 
absorb many more refugees here in the United States than is currently 
contemplated. More than 20 former senior U.S. Government officials from 
both parties recently issued a public statement calling upon the U.S. 
to accept 100,000 Syrian refugees. However, even if Europe and the 
United States collectively take the most generous number of people 
possible, it will only scratch the surface of the crisis now stretching 
across a swath of fragile and conflict-torn Middle Eastern and African 
countries.
    As the world focuses on the wave of refugees and migrants arriving 
in Europe, we must redouble our efforts in the frontline states. We 
must ensure critical assistance is reaching refugees and displaced 
people in the region, with an emphasis on building resilience for 
populations that may not go home anytime soon and helping those who can 
return. That also must include continued support for the countries and 
communities bearing the brunt of this crisis. Most importantly, we must 
not lose our focus on the roots of this crisis--the conflicts and 
oppression born of governments that are ineffective or illegitimate or 
both.
    I recently returned from Iraq, where I met with Iraqis who have 
been displaced since ISIS rampaged through their villages and cities 
more than a year ago. They are now living in camps, containers, or 
crowded apartments paid for with dwindling savings. Many of them are 
from minority communities--Christian, Yezidi, Shabak, and others--and 
are terrified of returning home in the absence of security guarantees. 
I met with two Yezidi sisters who escaped from their captors after 
having been sold to three different men. Now, sharing a container with 
another family and without access to trauma counseling or a way to 
support themselves, they are sliding into a new kind of hopelessness. I 
also met with a young Sunni mother who is alone with her two children, 
determined not to return to her ravaged community but rather make it to 
Europe, where she believes a better life awaits. There are countless 
stories of people with lives interrupted by terror and, now, 
uncertainty.
    In Iraqi Kurdistan, the strain of hosting so many displaced is 
clear. Churches, civil society organizations, and mosques have 
mobilized to provide life-saving assistance, but as the numbers of 
displaced continue to rise, resources are being rapidly depleted. 
Iraq's Kurdish region already had taken in 275,000 Syrian refugees 
before the ISIS expansion into northern Iraq drove another 1.5 million 
Iraqis toward the safety of the Kurdish region. Now, one in five 
residents of Iraqi Kurdistan is displaced, placing an incredible strain 
on a region already reeling from plunging oil prices and the constant 
threat of ISIS. Many people are unable to find work or ensure their 
children attend school. As one civil society leader noted to me, ``We 
have seven internally displaced camps here, which equals seven time 
bombs, as people sit without work or education for year after year.''
    Nationwide, Iraq has more than 3.2 million internally displaced 
people crowding into cities, camps, and makeshift shelter. 
Infrastructure--water systems, electrical supply, schools, and health 
clinics--is all strained to serve far more people than intended. And 
now, reports are emerging of cholera in Iraqi cities. Just over a week 
ago, the World Health Organization reported that it was supporting 
Iraq's Ministry of Health, which on September 15 had declared a cholera 
outbreak in the provinces of Najaf, Diwaniya, and parts of west 
Baghdad. The agencies are working together to step up measures to stop 
transmission and prevent further spread of the disease.
    The story of displacement is even more stark in neighboring 
countries. The population of Lebanon, with its politically fragile 
demographic balance, is now fully one-fourth Syrian. Lebanon, Jordan, 
and Turkey have been taking in refugees for 5 years now and together 
shelter 3.6 million Syrian refugees, according to the U.N.
    Much of the focus is now on Syrian refugees, but there are an 
additional 7.6 million Syrians displaced within what is left of their 
country, with an astounding 12.2 million citizens inside Syria who need 
urgent humanitarian assistance. So as the conflict continues, the 
number of people choosing to leave the country is only likely to grow.
    Even as we seek solutions for refugees in Europe and the United 
States, we must also refocus on determined action in four areas:

  <bullet> Meeting the immediate humanitarian needs in the region to 
        ease the suffering of millions forced from their homes and 
        living on the edge of existence;
  <bullet> Recasting assistance to refugees, internally displaced and 
        hosting communities, to emphasize longer term resilience and 
        rebuilding of social cohesion for what are likely to be 
        extended displacements stemming from protracted conflicts;
  <bullet> Enabling a return home for those able and willing to do so;
  <bullet> Redoubling efforts to address the root causes of violent 
        conflicts that are driving these cascades of crisis.
                        the most immediate needs
    The Syrian war, now in its 5th year, is contributing to a global 
humanitarian emergency of record displacement. According to the U.N., 
nearly 60 million people are displaced globally due to violence, 
conflict, and repression--roughly equivalent to the entire population 
of Italy. Thanks to your important support, Senators, the United States 
has been the global leader in dedicating significant resources to the 
humanitarian response. Since the beginning of the Syrian crisis, the 
U.S. has committed $4.5 billion, saving countless lives. But the 
sustained level of crises worldwide is draining funding and attention. 
The U.N. has only raised 38 percent of the $7.4 billion it says it 
needs this year to care for Syrians fleeing the fighting, and only half 
of the $704 million requested for Iraqis displaced by ISIS. The World 
Food Programme has been forced to drop fully one-third of Syrian 
refugees in the region from its food voucher program this year due to 
funding shortfalls. The needs in Yemen, Sudan, South Sudan, and the 
Central Africa Republic keep falling even further from public view.
    Now is not the time to shortchange critical aid programs. Even as 
the U.S. Government continues its generous support, it is important for 
a broader community of nations to join in the financing of these vital 
life-saving programs. Despite significant efforts over the last 5 years 
to broaden the donor pool, the primary funding continues to come from a 
small group of nations.
    There is also an urgent need to augment civilian protection for 
those still living inside Syria and facing daily deprivations and 
death. Despite a hard-fought effort that resulted in the unanimous 
passage of U.N. Security Council Resolution 2139 in February 2014, to 
ease the delivery of aid to Syrians, there has not been a serious 
effort at implementation. This resolution calls for unhindered delivery 
of humanitarian assistance across borders to those trapped inside Syria 
and, most importantly, a cessation of the targeting and killing of 
civilians, especially medical personnel. However, this resolution has 
never been fully respected, while the barrel-bombing campaigns, 
targeting of civilians, and blockage of life-saving assistance 
continues.
      recasting assistance for longer term recovery and resilience
    We also must ensure these assistance programs are as effective and 
efficient as possible. It is critical to focus on enabling refugees and 
displaced families to access employment, education, and trauma 
counseling, with the goal of helping them prepare for a future, not 
just survive the present.
    In the face of protracted conflicts, the global average for 
displacement is now 17 years--it takes 17 years for families to return 
home, which is a lifetime for a young man or woman. And yet, all too 
often, aid programs, constrained by mandates, types of funding, and 
institutional strictures, continue to be administered as if 
displacement is a short-term problem.
    For those displaced by violent conflict, living in strange cities, 
and without resources, it is a daily struggle both for survival and 
dignity. Host-country policies often prohibit refugees from working 
legally, forcing many into underground economies and unsafe work. And 
despite generous efforts by Jordan and Lebanon, there simply is not 
enough space in their schools for the enormous number of Syrian 
children. Across the Middle East, some 13 million children are not 
attending school because they are affected by conflict. And nearly 4 
million of the displaced Syrians are children, many out of school for 
almost 5 years now. Investing in the future of these children must be a 
top priority.
    Also vulnerable are the many poor communities hosting the bulk of 
the refugees, especially in fragile Lebanon and Jordan. Our assistance 
must focus as well on building bridges between host and refugee 
communities and shoring up weak infrastructure and faltering economies 
that must now meet expanded demands. Again, thanks to your support, 
Senators, the U.S. Government has generously provided budget support 
and development assistance to the region, particularly to Jordan.
    Over the last 5 years of the Syrian conflict, the U.N., the World 
Bank, host country governments, and local and international 
nongovernmental organizations have made significant strides in seeking 
new ways of working together to address the crisis more effectively. 
With U.S. support, the World Food Programme and nongovernmental 
partners have been able to launch an e-card platform to provide cash on 
debit cards for food and essential nonfood items, enabling women to 
have a choice and voice in their purchases instead of queueing up for 
bags of food, while also injecting critical funding into the local 
economy. In Jordan, U.N. agencies have teamed up to use biometric 
registration so refugees can use iris scans at ATM machines to access 
assistance, which reduces costs and increases accountability. The World 
Bank and the U.N. Development Program are supporting local governments 
to develop ``resilience strategies'' that chart a development course in 
light of the ongoing crisis.
    However, there is still much more that needs to be done, especially 
to increase education and employment opportunities. We must seize the 
opportunity of this crisis to push our assistance strategies to be more 
creative, look longer term, and support the resilience and dignity of 
those we seek to help.
              enabling returns of refugees after conflict
    Where there is hope for displaced people to return to their home 
communities in the foreseeable future, the international community can 
begin preparing the ground now. In Iraq, military forces will drive 
ISIS out of occupied areas eventually, but tensions and trauma will 
linger. The war has militarized large segments of the society, making 
caches of weapons ubiquitous and violence acceptable. We can help 
reduce the risk that cycles of conflict will continue by investing in 
rebuilding communities to make the way for sustainable returns. Key to 
this is support for those working to rebuild the social fabric and 
seeking reconciliation at all levels, from the local to the federal.
    In Iraq, thousands of families have already returned to Tikrit, a 
city in northern Iraq that was wrested from the control of ISIS in 
April by a combination of U.S.-led coalition air strikes and Iraqi 
regular and militia ground forces. Human rights organizations since 
then have documented accounts of retribution in the early days after 
that liberation because of outrage over a June 2014 massacre by ISIS of 
1,700 Iraqi cadets in training at a military base nearby known as Camp 
Speicher. The cadets killed were mostly Shia from the country's south, 
and with ISIS touting itself, however disingenuously, as defender of 
the region's Sunnis, blame for the massacre extended to entire Sunni 
tribes accused collectively of collaborating with the extremists and 
taking part in the killings.
    But in some parts of Tikrit, USIP partners on the ground were able 
to conduct careful negotiations and inclusive dialogue among tribal 
leaders connected to the survivors, families of victims, and those 
accused of involvement in the massacre. The dialogue served to increase 
understanding of the facts and reduce tensions. Shia tribes that 
included victims' families, for instance, learned that Sunnis in the 
area had actually helped some of the survivors escape, even to the 
extent of allowing wives and sisters of Sunni tribal leaders to 
accompany the Shia cadets for cover as they passed through ISIS-
controlled checkpoints. The channels of communication opened by those 
negotiations allowed 400 families to return, and thousands more have 
followed.
    In some cases, the process of rebuilding the social fabric can 
begin with people even while they are displaced. Facilitated dialogue 
involving displaced people and local citizens and officials of their 
host communities can enhance everyone's sense of dignity and control 
over their lives, and achieve tangible improvements in living 
conditions not only for those displaced but also for their hosts. USIP 
has learned that effective dialogue--the kind that produces positive 
change--requires a great deal of planning and skill. The more complex 
and polarized the environment in which dialogue takes place, the more 
thought and skill are required. These structured forums can lead to 
measures that improve political inclusion on potential flash-point 
issues such as government budgeting. They can improve relations between 
citizens and police forces still hampered by the legacies of 
authoritarian culture and practices. They can prevent electoral 
violence, one of the most common triggers of broader violent conflict. 
The skills that are learned and practiced in the process--listening, 
communicating clearly and openly, negotiating respectfully--can later 
be transferred to home communities when displaced people return to 
newly liberated areas.
                addressing the roots of violent conflict
    Finally, there is the pressing need to prevent conflict from 
becoming violent in the first place. At USIP, we emphasize the point 
that conflict is inevitable, but violent conflict is not. The refugees 
we see streaming into Europe are coming from places that have 
experienced long-term unrest, repression, and weak or illegitimate 
governments. These are well-documented factors that spur violence, 
undermine development gains and prevent sustainable peace.
    Just a few days ago, we saw the passage of new Global Goals for 
development by all members of the United Nations. The successor to the 
Millennium Development Goals (MDGs), the Global Goals are remarkable 
for the historic inclusion of Goal 16, which calls for peaceful, 
inclusive societies as essential for sustainable development, with an 
emphasis on justice for all and accountable, inclusive institutions at 
all levels. This goal acknowledges the centrality of good governance 
and state-society relations to meet and sustain fundamental development 
goals, with the ability to manage conflict before it becomes violent. 
It may seem a quixotic effort, but 15 years ago, we never thought we 
would meet so many of the Millennium goals either. Now is the time to 
double down on helping those countries willing to tackle the challenges 
of Goal 16, and key will be the role of committed, courageous members 
of civil society.
    Members of the committee, as the international community rightly 
assists the refugees who are making their way to Europe, I urge the 
United States also to keep our attention fully focused on the regions 
that are at the epicenter of the crisis.
    Thank you for your continued support for these efforts.

    The Chairman. Thank you all very much for not only what you 
do but for being here today.
    And with that, Senator Cardin has a conflict. So I am going 
to, as a courtesy, let him ask questions first.
    Senator Cardin. See the conflicts are all over. [Laughter.]
    Thank you, Mr. Chairman. I appreciate the courtesy.
    And let me thank all of our witnesses not only for being 
here but what you do to help in regards to this international 
humanitarian challenge.
    U.S. leadership is so desperately needed in multiple 
strategies. Yes, in the geopolitical landscape to deal with 
resolving these conflicts so people can live safely in their 
homes, that is obviously where the United States must put a 
great deal of attention.
    As has already been pointed out, a lot of these refugees 
are going to be in border countries for a long time, and the 
cost, is tremendous not only the dollar cost but as it affects 
the stability in those countries. And there are international 
responsibilities. The United States must be a leader. And as I 
pointed out in my opening statement, the United Nations has 
indicated that it does not have the money it needs to address 
the humanitarian needs.
    And then lastly the resettlements. And I just want to talk 
a moment about that because there are 20 million refugees. We 
know 4 million are now from Syria. And most of these refugees 
are not returning home anytime soon. Some are not going to be 
able to return home. And regarding our refugee policy numbers, 
those caps were based upon the philosophy that refugees would 
be returning to their host countries. That is not the real 
world today. So for the United States to have a cap at 75,000 
or 85,000 or 100,000, does not recognize that there are 20 
million refugees worldwide, and that many of them are not going 
to be able to return safely to their homes, and many want to 
resettle in a place where they can have a future for their 
family. To live 17 years as a refugee on average does not give 
you a future for your family.
    So I guess my first question is: Should we be looking at 
the 20 million differently? Should we be realistically 
determining how many of these individuals need permanent 
placements, particularly those who are recent and do not have 
roots in the border country, but really want to reestablish 
roots for their families? Should we be looking at these numbers 
more realistically today?
    Mr. Miliband. Thank you, Senator. Let me just say three 
things in response to what I think is a really apposite 
question because what we all face is at least 20 million 
refugees and 40 million internally displaced people, the 60 
million that Nancy referred to. The central question is is this 
a trend or is it a blip. Those numbers were a world record last 
year, more than at any time since World War II. And my thesis 
to you is that this is a trend and not a blip. So your question 
is absolutely right. And I think three things are important.
    First of all, refugee resettlement is important for the 
substantive help that it offers, for the sake of argument, to 
the 100,000 people that you mentioned. But it is also a 
symbolic value of standing with the countries that are bearing 
the greatest burden. No one can pretend that refugee 
resettlement into Europe or into the United States is going to 
``solve the problem.'' It is not going to involve the majority 
of the refugees, but it is a symbolic as well as a substantive 
show of solidarity.
    Second, a critical point. The vast majority of refugees 
live in poor countries neighboring those that are in conflict. 
And the Syria case is a prototype. And local integration is 
going to be the solution either because we acknowledge it and 
embrace it or because it happens de facto. And I think what 
Michel Gabaudan was saying is that we have to embrace this 
point that there are going to be the majority of refugees in 
neighboring states, and the question is do they become economic 
contributors or are they simply seen as an economic drain.
    And just to amplify his point, he was saying that at the 
moment, the World Bank by its mandate is not allowed to work in 
Lebanon and Jordan because they are considered to be middle-
income countries. And in the new world that you are describing, 
it has got to be a central part of the World Bank's modus 
operandi that fragile states, conflict states where 43 percent 
of the world's extreme poor now live--I mean, that is the 
central challenge for the sustainable development goals that 
were embraced last week. It has got to be a central part of the 
philosophy of the World Bank that fragile states are its 
business.
    Frankly--and I hope my colleagues agree with me on this--it 
has also got to be a point of reflection for the NGO and 
humanitarian movement. We have to recognize that economic 
interventions need to sit alongside the traditional social 
interventions that we have done, not just health, education, 
protection of women and kids, but also economic livelihood 
programs.
    The third and final point is that already in the course of 
the 45 minutes we have been together, it is evident that the 
words ``humanitarian'' and the words ``development'' do not do 
justice to the policy problems that are faced here. And I would 
submit to you that the budget headings, such and such is 
humanitarian, such and such is development, do not do justice 
to the problem. And the institutions that we have got, some of 
them working on humanitarian crises, others on development--
that separation does not do justice.
    Just to give you a figure, in the 20 biggest crises last 
year, $5.5 billion were spent on the so-called humanitarian 
intervention, and $28 billion was spent on development 
interventions. Now, the truth is they have to work together, 
and that is a major challenge to the international system, 
which I think it would be tremendously positive if the 
committee was able to engage with them.
    Senator Cardin. Let me change gears just for one moment. 
The United Nations estimates that there are over 400,000 people 
inside Syria who are besieged and who we cannot be reached with 
humanitarian assistance. And they are saying there are another 
4.8 million that are hard to reach. Do we have a strategy for 
dealing with vulnerable populations within Syria that we cannot 
effectively reach through conventional means?
    Ms. Lindborg. The U.S. Government was the leader in 
providing assistance that was going across borders, across the 
Turkish and Jordanian borders, to reach those who could not be 
reached through the U.N. Damascus-based effort. Many courageous 
NGOs were very much a part of that. That has been curtailed by 
the incursion of ISIS into some of those areas, although the 
work continues and there continues to be extraordinarily 
courageous efforts to reach those refugees.
    The barrel bombs are equally a problem, as my colleagues 
have noted, and despite the provision of a U.N. security 
resolution that David mentioned, there is not a serious effort 
to provide civilian protection.
    So as we look at resolving this conflict, civilian 
protection has got to be chief among the goals that we 
collectively put in front of the international community. In 
the absence of that, people are just being pummeled by both 
sides by Assad's people and by ISIS, and that further curtails 
the ability to reach them with assistance, and even if you did, 
they are threatened with death.
    Mr. Miliband. Can I just add a short point on that? The 
short answer to your question is, ``No,'' there is not a good 
strategy for reaching these besieged areas. The truth is those 
people are in a worse position today than when the U.N. 
Security Council resolutions were passed. And so our proposal 
for the humanitarian envoys who will be on the ground trying to 
name, shame, negotiate, organize the delivery of aid is at 
least one idea to try and break this terrible deadlock because 
at the moment once a month, the U.N. Secretary General reports 
to the Security Council that medical aid is being taken off 
lories and dumped. And there is no accountability for that kind 
of abuse of basic morality, never mind international 
humanitarian law. And so I think that your focus on this and 
your demand or the implicit demand that this has to be at the 
absolute center of any basic approach to the humanitarian 
situation in Syria is absolutely right.
    Senator Cardin. Well, there is no question that these 
individuals who are vulnerable, that we cannot reach, or hard 
to reach are going to add to the numbers. They are going to add 
to the number of casualties. They are going to add to the 
number of people who try to flee Syria for a better life. It is 
going to add to the number of refugees. It is going to add to 
all the numbers we are talking about. It is just a matter of 
how quickly they can find a safe place or leave or they will 
become casualties of the war.
    The Chairman. Thank you. Thank you very much.
    Dr. Gabaudan, I think people in our Nation get confused. We 
allow about 70,000 refugees into our country right now each 
year. And I know the administration has talked about raising 
that to 85,000 and then to 100,000 over the next couple of 
years. And then there have been statements about, on top of 
that, adding 100,000 Syrians into our country immediately not 
by the administration but by others who are advocating for 
that.
    I know we have the chairman of the Homeland Security 
Committee here, but is there a way to actually screen and deal 
with that, or is that a number that really is one that is not 
realistic relative to our ability to screen those coming in?
    Dr. Gabaudan. Senator, in terms of the capacity, the United 
States has shown in the past that it can admit large numbers. 
We saw that with Vietnam. We saw that with Cuba. We saw that 
with the Kurds, et cetera. So there is capacity in this 
country. There is a question of resources, of course.
    I think that the U.S. system has the most serious vetting 
system in the world. If you look at other countries who 
resettle refugees, they do not come half the way the United 
States does in vetting the people which it admits.
    The U.S. resettlement program has a tremendous quality, 
which is it chooses people on the basis of vulnerability, and 
that vulnerability is usually assessed at the beginning by the 
U.N. who makes the initial submission to the United States. 
When you start looking at people who suffered torture, women, 
female of household, et cetera, the sort of criteria the United 
States uses, I think you already have a filter deepened by the 
work of Homeland Security. So I think there is certainly the 
technique and the capacity.
    For Syrians, I do understand that it will take some time to 
reach the numbers because I was told that the intel that the 
Government has on the Syrians is not as good as the one it had 
on Iraqis, et cetera.
    So there are genuine difficulties that will have to be 
overcome. But our experience over the past 40 years in dealing 
with resettlement is that this country has the capacity, has 
the experience, and has shown the willingness to do it when the 
conditions require it.
    The Chairman. I know there are some discussions right now 
about us working with Russia as it relates to Syria. And I just 
want to understand from your perspective--you are dealing with 
refugees--are they fleeing Assad's barrel bombs or are they 
fleeing ISIS? I know they are fleeing both, but generally 
speaking, can you get at, for this discussion, the greater root 
or the roots, if you will, of why people are fleeing the 
country briefly? And then I want to follow on with additional 
questions. But go ahead.
    Mr. Miliband. Let me just speak to the experience I had 
last week in Greece. Over the course of 2 or 3 days, I must 
have spoken to 200 or 300 refugees, the majority of them 
Syrian.
    The answer to your question is it depends where in Syria 
that they are coming from. The majority that I met, they were 
from Aleppo, from greater Damascus, or from Deir ez-Zor, which 
is out in the east of the country. And it is a different 
situation in different parts of the country.
    But the point that you made that they are facing a pincer 
movement, on the one hand, they have got the barrel bombs of 
Assad, and then on the other hand, they have got the terror of 
ISIS. And it is almost as they flee from the barrel bombs, they 
end up being driven into the hands of ISIS, and that is what is 
forcing them out. The particular circumstances in different 
parts of the country are obviously a matter detail, but there 
is a wider significant point; 95 percent of the barrel bombing 
attacks and other attacks that the Assad air force are 
undertaking are not against ISIS targets.
    The Chairman. If I could, so people understand, these are 
just against civilian populations. Right?
    Mr. Miliband. And other rebel groups, and some of them are 
against other rebel fortifications because obviously there is 
Jabhat al-Nusra and other groups. But it is certainly the case 
that a very small proportion of the bombing raids are targeted 
on ISIS.
    The Chairman. Does anybody differ or want to add to that?
    Ms. Lindborg. I would just add, having been in Iraq last 
week, that it very much differs depending on the circumstances. 
For example, I met with a couple of Yezidi sisters who had 
recently escaped, having been sold to three different men. They 
are now living in a container with another family clearly 
dealing with enormous trauma. They do not really have a sense 
of what their future is, and they have no ability to imagine 
going home, which is true for a number of the minority 
populations that have been pushed out of their homes. In the 
absence of security guarantees, they are saying they want to be 
resettled. They cannot go back unless there is security. So 
that is one set of specific issues.
    I also met with a young Sunni woman who had been studying 
for her university exams when ISIS swept through Mosul. She 
fled with her family. She is now living in a very crowded 
apartment. She has not been able to resume her studies. It has 
been over a year. She is just wondering what is her life likely 
to be. She also wants to go to Europe. So there are lots of 
reasons that people are desperate to envision a better life.
    The Chairman. Let me just ask this question. It is hard for 
me to contemplate this even, but if an effort were put in place 
to strengthen Assad, which is what Russia and Iran are pursuing 
right now, what effect would that have if we were somehow a 
part of that or winked and a nod and said that was okay? What 
would that do from your perspective based on what you are 
seeing on the ground relative to the refugee crisis? I think I 
can answer for you, but if you would answer for the record. Mr. 
Miliband?
    Mr. Miliband. I congratulate you on the precision of your 
question, and leading a humanitarian organization, I am going 
to have to be extremely precise in my answer.
    I think that from our point of view the violations of 
international law and basic rights are coming from all sides, 
but the majority are coming from the Assad government.
    Secondly, it is evident to anyone who reads the newspapers 
or follows the debate that significant actions by the Assad 
government have bolstered ISIS and have enabled the growth of 
ISIS.
    Thirdly, any diplomatic or political approach needs to 
address both sides of the coin if it is to have a chance of 
success.
    Ms. Lindborg. I would just add that as we mentioned 
earlier, there is a tool, U.N. Security Council Resolution 
2139, which was unanimously passed, that has not been upheld by 
key actors in the region who are now making different moves. 
There is an urgent opportunity to push key actors to take that 
seriously. That addresses the targeting of civilians, the 
barrel bombing, and the withholding of the humanitarian 
assistance.
    The Chairman. Mr. Gabaudan--and I know I am running out of 
time myself. I would say I do not remember many U.N. Security 
Council resolutions that have been adhered to, and it seems 
that when they are not adhered to, we just change them to 
something that can be adhered to. So I am sorry. I am a 
skeptic. But Dr. Gabaudan.
    Dr. Gabaudan. No. I fully subscribe to what David was 
saying regarding the source of the main drivers of exodus. Of 
course, there are changes. Kobani was clearly driven by the 
ISIS offensive. But if you speak to refugees on the border, the 
majority will refer to the barrel bombing. This is the story we 
get on and on and on. And I am talking about Syrian doctors who 
work for NGOs that have a 501(c)(3). You know, these are people 
who understand where we come from, et cetera. I am not talking 
about wild groups, et cetera.
    My fear is that any attempt at peace that does not 
immediately have an impact over how, in this case, the barrel 
bombing are being used against civilians will go nowhere, will 
be completely discredited by the large majority of the Syrians 
we meet in neighboring countries.
    The Chairman. So, if I could, unless the barrel bombing 
stops, the refugee crisis will continue to get worse.
    And just in closing--I apologize to my colleagues here--are 
the Sunni--are any of the Arab countries, Saudi Arabia, some of 
those that are working to unseat Assad in certain ways--are 
they taking any refugees at present?
    Mr. Miliband. They are not signatories to the 1951 
Convention. So they do not recognize the status of refugees. If 
they were sitting here, they would say there are 500,000 
Syrians living in Saudi Arabia and 120,000 Syrians living in 
the United Arab Emirates. Some of them have arrived recently; 
others have been there for a long time. But their status is not 
as refugees. Their status is as migrant workers.
    The Chairman. Thank you.
    Senator Perdue.
    Senator Perdue. Thank you, Mr. Chairman, and thank you.
    I would like to thank our witnesses today not just for 
being here today but for what you are doing in the middle of a 
huge crisis. We all empathize.
    Mr. Miliband, I would like to start with you. In 2011, the 
United States created a vacuum in which ISIS began to grow. 
They needed land to legitimize the caliphate. They have done 
that. In the last few years, we have created a vacuum by not 
having a Syrian strategy, and now we just see in the last few 
weeks the formalization of Russia's presence there with 
military troops and so forth. In the last 5 years especially, 
we have seen Iran and Russia supporting the Assad regime, which 
we have been talking about today.
    My question is what complication does Russia, now showing 
up with military presence--and do you have any perspective 
being in the region? You talk about development and 
humanitarian help coming together. I would like to know how 
this development and the lack of a U.S. strategy in the region 
complicates your ability to deal with the ongoing crisis? I 
have a couple followup questions on that about prevention.
    Mr. Miliband. Thank you very much, Senator. I should say 
that every time the Senators applaud the work of our 
organizations, it is very reinforcing for our staff who are out 
there in the field in really the most dangerous places doing 
extraordinary work. And I want to thank you very much for what 
you said which I see as a tribute to their work.
    I think that in respect of the complication I think you 
said that is being inserted by the Russian moves over the last 
2 or 3 weeks, I have to defer to those who are privy to the 
intelligence and to the military optionmaking that is going on. 
As the leader of a humanitarian organization, what I have to 
keep on stressing is that all decisions, both military and 
political and humanitarian, need to be made with the needs of 
the citizens at the heart.
    What I would point to over the last 5 years is the 
extraordinary fragmentation and complexity that has developed 
both within Syria and in Iraq as well, and that complication 
makes it doubly difficult for us to do our job. So the 
negotiation that is necessary to have local consent to deliver 
aid depends on engaging with a bewildering array of local 
actors whose power changes sometimes on a weekly basis.
    The wider point about the Russian role I think has to be 
split into two parts. Until the passage of the U.S. Security 
Council resolutions, there was no cover for the cross border 
work that we and others were trying to do. And so the issue 
then was trying to get that cover. Since the passage of the 
resolutions, however, we have not actually been able to do more 
work. We found our situation constrained in part by the 
position on the battlefield but also by the lack of official 
backing from those who supported the resolution. I think that 
is why the emphasis that Nancy has put on turning those words 
and that resolution into action, notwithstanding the history 
the chairman referred to, remains very, very important because 
a Security Council resolution is only as strong as the nation 
states who back it and their willingness to see it through.
    Senator Perdue. You know, yesterday--and I want to move 
this question now to Assad and Putin's relationship with Assad. 
Yesterday he made a comment--and I quote--``refugees 
undoubtedly need our compassion and support, but the only way 
to solve the problem is to restore statehood where it has been 
destroyed, to strengthen the government institutions where they 
still exist.''
    My question--and I will start with Dr. Gabaudan. Can we 
solve this problem as long as Assad is barrel bombing his own 
people, targeting open markets, targeting children? The 
question then before us is, can we solve this? There are two 
levels of this. One is obviously the immediate crisis and then 
the long-term solution. As you said, Mr. Miliband, this is no 
longer a blip. It is a trend. If that trend is there, then 
going back to what Senator Cardin mentioned earlier, we have 
got to develop a different strategy. This is not just about 
feeding people for a few weeks. It is about education. It is 
about training.
    So my question is in trying to prevent this now, or at 
least getting at the immediate crisis, how should we look at 
Putin's comments relative to Assad and also what Iran's 
position has been over the last decade with regard to Bashar 
Assad.
    Dr. Gabaudan. Well, I can only answer this from the 
perspective of what I heard from refugees and not from a 
politician or a strategist. So I hope you will take my answer 
in this context.
    I certainly think that if a negotiation takes place with 
Assad, it has to be credible with a large number of people who 
have fled the country. There should be an immediate stop to the 
deliberate attack against civilians. Any process that does not 
control that from day one will be doomed and will not lead 
anywhere in terms of satisfying the population who have left 
this very violence. Now, whether he is prepared to do that as a 
precondition for getting into peace negotiations, I do not 
know, to be honest, and I am not anywhere close to these 
discussions. But I think it is essential that people who are 
going to be associated to a peace settlement have to make a 
commitment to stop immediately the sort of deliberate attack on 
civilians. I know in a conflict there will always be civilian 
casualties by the very nature of the conflict, but the 
deliberate attacks on civilians is something that is far too 
grievous to sustain a peace process.
    Senator Perdue. We have all traveled to the region. Senator 
Gardner and I were just there this spring in Jordan. They are 
overwhelmed. Basically the parallel would if the United States 
had accepted refugees, it would be the size of England, for 
example. They are overwhelmed. We see that.
    What I am really concerned about long-term are the 
children. We talk about it being half the problem basically 
today. Ms. Lindborg, would you just speak to that and elaborate 
just a little bit more about what we can do in the immediate 
future and then what the long-term implications of that are? 
Because this looks like a breeding ground for dissent, and I 
totally understand that. Would you just speak to that and what 
we need to be doing now in order to prevent further 
exaggeration of this crisis in the future?
    Ms. Lindborg. Yes, you are absolutely right. There is an 
enormous population of children who are out of school both from 
the Syria crisis and Iraq and through the region who are the 
next generation growing up without a future, without a sense 
that they have something positive to connect to. As we look 
regionally at this whole issue of how to counter violent 
extremism while at the same time we are not, as a global 
community, enabling these displaced kids to connect to 
education and something more positive in their lives. This 
situation is creating, as the activists in Iraq told me, seven 
hot spots, seven time bombs.
    There was a very important effort launched 2 years ago 
called No Lost Generation, which was an effort to focus across 
the humanitarian and development community on education and on 
enabling fuller support for kids. One of the challenges that we 
have--and David spoke to this--is that we get trapped inside 
the differing mandates and stovepipes of the way in which we 
deliver humanitarian and development assistance. My hope is 
that this current crisis will really catalyze us to move 
further and faster on some of the more innovative ways that we 
know we can use to provide more appropriate assistance that 
gives people a chance to have a living, to get the kind of help 
they need to recover from trauma, to get their kids educated. 
That is one of the most important things that would enable 
people to not leave the region. Otherwise, they have a sense 
that only by going to Europe or the United States will they 
have an opportunity for those basic ways of having a more 
dignified life.
    Senator Perdue. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I might just point out the barrel bombs are being delivered 
by air. I think everybody understands that. I cannot imagine 
what these many refugees and people around the world are 
thinking about nations like the United States and others that 
know this is happening as we are sitting here in these nice 
circumstances and are continuing every day to allow that to 
happen, plus the torturing of people in its prisons. And yet, 
we are going to the U.N. Security Council and talking about 
hollow--hollow--resolutions.
    But anyway, Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you all for your testimony, and let me just briefly 
join the chorus of voices that have recognized the 
International Rescue Committee. I have done work with them. It 
is extraordinary work and you should be incredibly proud to 
lead them.
    As someone who comes from a community that were refugees to 
the United States, I have a very strong appreciation of the 
willingness of the country to accept those who are fleeing for 
whatever the reasons. So I am a strong supporter of broadening 
our response. But I also understand that at the core of the 
problem, as Ms. Lindborg says in her testimony, that the most 
generous contribution of the United States only scratches the 
surface.
    But at the end of the day, unless we get to the root 
causes, we are treating symptoms but not the causes of what 
makes people flee from their home. And in this case, in the 
case of Syria, the ongoing conflict. The barrel bombing, which 
unfortunately in and of itself, is a horrific act, is also 
exacerbated by the use of chlorine gas in violation of 
international standards, as well as my thought was that when 
this committee passed an authorization for the use of force to 
stop Assad's use of chemical weapons against his people, that 
we would be looking at a permanent stoppage of chemical weapons 
against his people. And while I certainly rejoice in the fact 
that we did do a lot to relieve the risk to the people of Syria 
by a variety of chemical weapons, we have not relieved them 
from the total risk at the end of the day. And so at some 
point, it is hollow if you do not follow through.
    What I wanted to get a sense here, first of all, is on your 
statement, the most generous contribution of the United States 
scratches the surface, and maybe, Mr. Miliband, you can help me 
with this too. In other countries, the numbers of refugees that 
are flowing into them--what would be roughly the percent vis-a-
vis the population of their countries that are taking place? 
Whoever can answer that.
    Ms. Lindborg. Well, I can say it is one-fourth of the 
Lebanese population. In Iraqi Kurdistan, it is one-fifth of 
their population. These are unimaginable numbers to have 
occurring----
    Senator Menendez. 20 to 25 percent.
    Ms. Lindborg. Twenty-five percent of the population in 
Lebanon is a Syrian refugee right now.
    Mr. Miliband. Just to follow that, 85 percent of the 
world's refugees are in developing countries. So the European 
comparison would be Germany has agreed to take 500,000 refugees 
or accept 500,000 asylum claims over the next year and for each 
of the next 3 years. That is in a population of 90 million. 
Italy, a population of some 60 million, has taken in each of 
the last 2 years 120,000 refugees. The U.K.--the Prime Minister 
has pledged that they will take 4,000 a year in a population of 
60 million. So you can see the variation there and the big gap 
between the neighboring states in the Middle East and the 
European governments. It is worth saying that the United States 
at its peak was taking about 180,000 refugees a year in 1979, 
1980, 1981 when so-called Vietnamese boat people were arriving 
here in very large numbers.
    Senator Menendez. So with the administration's announcement 
that they will move up to 85,000 total refugees--that is not 
necessarily Syrian refugees--that would be about 2 percent of 
the American population. So I say that in the context of 
understanding the challenges of other countries here compared 
to what the United States is looking at. And I say to myself in 
that regard, you know, we are either going to choose to help 
countries where, in fact, refugees are flooding to in the first 
instance and while we are, to be more robust about it, or we 
have to think about what is a number that is acceptable here in 
the United States as part of an international commitment.
    But I want to go to the core question, which is how do we 
stop--I would assume--and correct me if I am wrong for the 
record--that none of you advocate that in order to stop the 
refugee crisis, that we should accept the violators of human 
rights and core international principles as a way to solve that 
problem. Is that a fair statement? You are nodding. Can you 
just say yes or no for the record?
    Mr. Miliband. Yes.
    Senator Menendez. So if that is the reality, that means in 
the case of Syria, moving away from Assad, even if it is in a 
transition, but at the end of the day moving away from Assad--
and I only see the circumstances getting worse, not better. We 
are doing nothing to stop the barrel bombing, including that 
with chlorine gas. We have Russia that is now sending all types 
of military hardware and creating an airbase for itself in 
Syria. I see at the end of the day that they have been a patron 
of Assad and will continue to be a patron of Assad until they 
see a solution that protects their interests at the end of the 
day. So in the interim, I see them using that force. And 
whatever entity they are using that force, again let us say 
ISIL for argument's sake, inevitably in a circumstance such as 
this, it will create more refugees. And I see Iran that has 
continued to support Assad.
    So I do not see a lessening of the refugee crisis. There 
are still, as I understand it, millions displaced who have not 
become refugees. At some point their displacement is going to 
lead them to be refugees, and when it leads them to be 
refugees, we are going to even have a more significant crisis.
    So at the end of the day, is not our goal, while in the 
interim, certainly doing everything we can for those who have 
sought refuge, to really dedicate ourselves to ending the 
violence, stopping the barrel bombing, and getting a transition 
in Syria? Because if we do not do that, there is not enough 
space, time, money to ultimately meet the crisis in the lives 
of these people.
    Mr. Miliband. Senator, I think you spoke very powerfully 
about symptoms and causes, and you have to treat the causes as 
well as the symptoms I think you are saying. And you are 
absolutely right.
    The way I would put it from my own organization's work is 
that we can staunch the dying, but it takes politics to stop 
the killing. And that is the fundamental challenge that we 
face.
    Now, staunching the dying is very, very important. I do not 
have to tell you that. And we could be doing much, much better. 
We can also be doing more than staunching the dying. We can be 
staunching the radicalization. We can be staunching the misery 
by much more effective work both inside Syria and in the 
neighboring states.
    But if your question is, Are there true limits to the 
effectiveness or the impact of humanitarian work in the absence 
of peacemaking of a serious kind? then the answer has to be 
unequivocally yes. And until we stop the killing, we are not 
going to be able to be doing justice to the people on the 
ground or to the values that we all stand for.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    Ms. Lindborg, I have a couple questions for you. You 
mentioned Security Council resolutions. And I think it was in 
2014 a couple of security resolutions passed, Resolution 2139 
in February 2014. I think you mentioned 2139, which demanded 
that parties promptly allow rapid, safe, and unhindered 
humanitarian access, and then Resolution 2165, which has 
basically called upon notification not consent for delivery of 
humanitarian aid.
    You mentioned that not all countries are--violations are 
being reported on all sides. Could you go into that a little 
bit more in terms of 2139 particularly?
    Ms. Lindborg. As David mentioned, there is a monthly report 
on progress, and there is a routine where lack of progress is 
reported and there are not any teeth in the resolution to do 
anything about it. And hence, Senator Corker, your skepticism.
    You know, there is not a Chapter 7 provision because there 
is not agreement among the Security Council members. For a 
number of years, there was a bit of a charade where there was 
not even full belief by all the Security Council members that 
we had a humanitarian crisis going on inside of Syria.
    I think what is going on globally today makes that a very 
difficult case for people to still make, for countries to still 
make that we do not have a humanitarian crisis of truly epic 
proportions. The resolution does provide one tool for forcing 
the conversation and forcing the agreement that the killing is 
at the root of the crisis.
    Senator Gardner. In terms of 2139, what ought we be pushing 
with the United Nations right now in terms of perhaps an 
amendment or enforcement?
    Ms. Lindborg. I am sorry?
    Senator Gardner. 2139 in terms of what we should be 
pursuing.
    Ms. Lindborg. There is no enforcement built into the 
current resolution. It was a hard-fought effort to get passage 
of it the way it was, and it is without teeth.
    Senator Gardner. You talked a little bit about--in response 
to the chairman's question--a little bit about barrel bombing 
and the pincer movement that, Mr. Miliband, you described. What 
would change the refugee crisis if barrel bombing were to be 
stopped? How would that change the refugee situation?
    Ms. Lindborg. Well, it would certainly decrease the deaths. 
As we have heard, the targeting is often of medical personnel, 
of clinics, of markets. I mean, we have seen the utter 
destruction of cities like Aleppo. People are fleeing often 
because their lives are just literally in shambles and their 
loved ones killed. There is still, obviously, the threat of 
ISIS and of other armed groups. It is a very chaotic situation. 
Yet, in pockets there are efforts to still maintain a life, and 
there are efforts to still have local administration in parts 
of Syria. I would add that we also need to continue and 
redouble our efforts to support those who are on the ground who 
are seeking to create some sort of ongoing stable lives for 
their communities.
    Senator Gardner. Mr. Miliband, would you like to talk about 
that in terms of putting an end to the barrel bombing, what 
that would do as our efforts continue, obviously, with ISIS and 
others?
    Mr. Miliband. Yes. I think that there are two ways of 
looking at it.
    One is obviously on the more political side, and that is 
something that you will be thinking about as you contemplate 
your views about the ultimate resolution of the conflict. But 
there is no question that the position on the battlefield 
creates traction on the wider diplomatic and political front. 
And I leave that to you.
    On the humanitarian front, there is no question that the 
daily, hourly abuse of international humanitarian law has 
created what someone said to me, Aleppo is hell and I had to 
escape from hell. And it is as blunt as that.
    Frankly, we have had our own people, who were not actually 
our staff but were benefiting from our services, go home. We 
lost seven of them. They were barrel bombed. Now, this is a 
daily reality for people who are, to pick up something the 
chairman said at the beginning, giving up hope. And at the 
moment they see their chance as putting their fate in the hands 
of smugglers and criminals who say they will get them to Europe 
as offering them more than staying in their own homeland in 
their own country. And that is obviously an indictment of the 
global response over the 5 years of the conflict.
    Senator Gardner. I am intrigued by Ms. Lindborg. In your 
testimony, you stated even if Europe and the United States 
collectively take the most generous number of people possible, 
it will only scratch the surface of the crisis now stretching 
across a swath of fragile and conflict-torn Middle Eastern and 
African countries. And I just want to make sure that as we 
continue this conversation that we are providing the most 
effective support possible because humanitarian aid is not 
going to--excuse me--refugee aid--the United States, Europe is 
not going to solve the problem alone. We have got to get to the 
bottom of the barrel bombing and the continued drivers of this 
conflict because we can open up as much as we want, but the 
crisis will still exist. And we have got to have a better 
strategy than we have right now.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair, and thanks to the 
witnesses for your work and your testimony.
    Just to explore, the U.N. Security Council resolution, what 
it called for but the absence of teeth to enforce it, has been 
incredibly disappointing. And I know everybody worked hard to 
get it passed in February of 2014 originally, and that was not 
easy. The fact that it was brought up during the middle of the 
Winter Olympics in Russia probably make it a little bit harder 
for them to throw the veto in as they have in the past with the 
eyes of the world on them during that Olympics. But it has been 
very discouraging that work has not happened.
    Senator McCain was probably the first in this body, 
beginning really in the fall of 2013, to start to talk about 
the notion of a no-fly zone, a humanitarian safe zone, some use 
of military force to create safe space most likely in the north 
of Syria near the Turkish border where people could go if they 
were fleeing Bashar al-Assad, ISIL, cholera, hunger. They could 
go with the thought that the creation of that zone and the 
protection of it with military force would allow the cross 
border delivery of aid under circumstances where the aid 
workers and others would not be jeopardized.
    I was originally not a fan of that proposal, but by 
probably February of 2014, I came to his way of thinking, 
seeing the numbers dramatically increase. My first visit to 
Turkey was at a time when there was about 750,000 Syrian 
refugees in Turkey in the summer of 2013 and now it is 2 
million. Other countries are seeing the same thing, and now we 
are seeing it spread not only through neighboring nations but 
throughout Europe.
    It is not easy. I assume that there is a whole lot of 
challenges in doing that. But to me it just seems if we do not 
go upstream and try to create some safe area with an additional 
nearly 8 million displaced people within Syria, that the crisis 
is going to continue. And even if we wave a magic wand and we 
say the United States will take 10 times the number of refugees 
that we have said we would take, it is still a drop in the 
bucket compared to the challenge that is likely to come.
    So am I wrong? Is that a strategy that is the wrong way to 
go about it? I am not sure you would get a majority of votes in 
this body for it. I think the vote that we had about using 
military force against the use of chemical weapons against 
civilians barely got a majority on this committee, and it was 
likely not going to get a majority in the Senate. It certainly 
would not get a majority in the House. Still, if the 
administration were to advocate strongly for it, there is some 
bipartisan support for the notion. But as folks who do this 
work, am I looking at this wrong?
    Ms. Lindborg. Senator Kaine, I have long wrestled with this 
question through this crisis. You know, the history of safe 
zones and no-fly zones for humanitarian purposes is fraught 
with cases where it did not work well and it is filled with 
moral hazard.
    At the same time, I think that as the crisis progresses and 
the level of killing continues that is prompting this level of 
crisis, for us to continue to not take some action that is 
forthrightly about civilian protection creates enormous tragedy 
for the people of Syria and is not at all consistent with who 
we are as a country. It seems to me that as we did in places 
like Kosovo, that it warrants a very, very hard look with our 
allies or maybe through concerted diplomacy with other actors 
who now claim to be interested in putting solutions on the 
table, that we look very closely at how to provide civilian 
protection. We should ask what is the best way of doing it and 
have that be the joint concerted goal of our actions and look 
at what military means might be required for a no-fly zone or a 
security area.
    Senator Kaine. Other thoughts?
    Mr. Miliband. I would say two things, Senator, about this.
    First of all, I think it would be very welcome if the 
debate about no-fly zones moved from slogans to details because 
the details really matter.
    Secondly, I think NGOs like ours can offer the benefit of 
experience of different ways in which governments around the 
world have tried to deliver so-called safe areas or no-fly 
zones because we have suffered from the details being got 
wrong. And I think that immediately you see that a safe area, 
which is designed to protect some people in some part of the 
country, immediately creates the moral hazard that Nancy 
referred to because for us barrel bombing any part of the 
country of Syria is an affront not just in parts of it. But 
that only is to make the point that obviously the debate about 
safe areas engages other questions and merely civilian 
protection, a proposal for safe zones most recently in the 
Armed Services Committee last week, was for reasons beyond the 
humanitarian. And that is why I think our best contribution is 
to advise on the humanitarian impact of different models of 
military and other action to protect civilians. And on that 
basis, I think we have got something to say without taking away 
from you the ultimate judgment that you have to make about who 
to put at risk and in what ways.
    Senator Kaine. But clearly, we are all in a position here 
where the existence of a U.N. resolution that calls for cross-
border delivery of aid without the consent of the Syrian 
Government and the stopping of barrel bombing, that that 
resolution now, you know, a year and a half old with zero 
enforcement of it--I mean, the impotence of that and the 
message that sends about the impotence of the international 
institutions and the unwillingness of the nations that are 
members of those institutions to do anything to back up their 
words--that is incredibly destructive not only in this 
circumstance but more generally. Would you not agree with that?
    I do not know the legal precedent on this, and maybe this 
is the wrong panel to ask this. But is there a legal precedent 
for a group of nations taking action to enforce a U.N. Security 
Council resolution that the U.N. is unwilling to enforce?
    Mr. Miliband. The closest precedent would be the Kosovo 
experience where, obviously, there was not a U.N. Security 
Council resolution and the U.S. administration at the time 
decided not to put a vote at the U.N. because it did not want a 
Russian veto. But the action took place. I cannot think of an 
immediate precedent of the kind that you describe.
    Senator Kaine. And looking back on that action, what is the 
humanitarian sort of NGO's conclusion about that in retrospect. 
Was that a good thing to do or not?
    Ms. Lindborg. Well, having been with an NGO at the time, I 
think there was widespread concern that Kosovo was undergoing 
the beginnings of mass atrocities and that without the 
campaign, there would have been terrible, terrible loss of life 
in Kosovo. With some mixed feelings, there was gratitude that 
action was taken that saved so many lives.
    Senator Kaine. So action that was taken to save lives in an 
ethnic cleansing situation, a huge atrocity, even without a 
predicate of a U.N. Security Council resolution calling 
precisely for delivery of aid into this area--you know, I know 
you can make mistakes and there is risk, there are mixed 
feelings about it. But the general sense was gratitude that the 
actions were taken.
    What projections have your organizations done--I am about 
done. But what projections have your organizations done about 
the likely pace of continued migration out of Syria over the 
next year or two if sort of status quo continues?
    Mr. Miliband. Just to finish off on your previous question. 
of course, the other relevant example would be the Rwandan 
genocide earlier in the 1990s, then Kosovo, about which people 
have very strong opinions.
    Our projections----
    Senator Kaine. And on that, was there a Security Council 
resolution but no international action was taken or it was 
taken horribly late so that the slaughter was just at dramatic 
levels before anybody did anything?
    Dr. Gabaudan. I wanted to go back to your first question, 
Senator, which is projections. I do not think we have numbers 
in mind, but certainly the people who are leaving now are 
people with a certain level of education and who have the 
resource to pay the smugglers and all----
    Senator Kaine. Many do not.
    Dr. Gabaudan. That is going to dry off. The people who are 
staying in Turkey, Lebanon, Jordan, et cetera, are those who 
are getting to the levels of absolute misery. I mean, I think 
these are those we have to retain in our mind.
    Mr. Miliband. Sorry. I did not answer you. None of our 
projections included a scenario where the German Government 
would say 3 weeks ago anyone from Syria can claim asylum in 
Germany. And so the truth is what projections we have done, 
they need to be revised in a very substantial way.
    Now, I think it is only fair to the committee to say both 
from within Syria and from within the neighboring countries, 
there has been a significant up-tick in the last month or 2 
months of people leaving, including people who are staff 
members and others. Undoubtedly, there is not just a pincer 
movement inside Syria, there is also a pincer movement on the 
people from Syria and from the neighbors.
    The second piece of evidence I think is very significant is 
that the number of people who we anticipate crossing the Aegean 
during winter we anticipate to be quite high. I was told when I 
was in Lesvos that the U.N. are actually projecting 20,000 
people to cross the Aegean in December, which would be unheard 
of. And obviously the dangers of hypothermia and other health 
hazards are very large.
    I think if where you are going with your question is do we 
have to prepare for very, very, very significant numbers 
leaving Syria and leaving the neighbors in the next year, the 
answer would be yes. And obviously what is happening in Europe 
at the moment shows the difficulty of playing catchup on this 
because Europe has had its eye on the euro crisis. It has had 
its eye on the Ukraine crisis. It has not had its eye on the 
refugee crisis. And now desperately trying to play catchup 
means that it is in a very, very much weaker position. So there 
is a warning there about what might happen in the next year.
    Senator Kaine. I have gone over my time. So thanks, Mr. 
Chairman.
    The Chairman. If I could, before turning to Senator Risch, 
just to clear something up. You mentioned--Senator Kaine 
mentioned the ethnic cleansing that was taking place in Kosovo. 
For what purpose is Assad barrel bombing civilian populations 
and clinics and others? There is not a military strategy there. 
So for what purpose would he be barrel bombing his own 
citizens?
    Mr. Miliband. I would be interested in my two colleagues.
    I think there are only two ways of seeing this. One is 
obviously as an assertion of strength and a display of 
strength, and secondly is that he is engaged in using air 
power, the only Syrian belligerent with air power, to attack 
some of the rebel groups. And he is not taking any care as to 
where the mortars land.
    The Chairman. Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    You know, when you look at this, this is a pretty 
depressing situation because the solutions that are on the 
table--as I understand the U.S. policy, is that number one, the 
policy is to return people back to where they came from. That 
is the first objective. If that does not work, number two, that 
they be kept safely in the years where they are housed. And 
only thirdly do you look at resettlement. Well, if you look at 
those policies, you wonder if that really works under the 
present situation. I think the description of this is epic, 
certainly is an understatement probably.
    But these people that now have--the number is about 20 
million, as I understand it, worldwide. Is that a fair number 
that you work with? If you talk about 20 million people who 
have left their homeland and essentially people who maybe would 
not have left under normal circumstances but now have been 
forced out, and once they have been forced out and they see 
what the rest of the world is like, they are not inclined to go 
back as is the number one policy supposedly that we have of 
seeing that they return to their homeland.
    So when you are talking about 20 million people, I mean, 
that number just is staggering. What troubles me is after this 
has happened and people have watched this with the Internet 
that we have now and the communications we have now, what is 
going to continue to happen in the future to people who look at 
this migration that has taken place and have said, well, you 
know, I am tired of living where I am? This is not good here. I 
am going to move on. And even though they are not forced out, 
they are going to make that move and, Ms. Lindborg, as you 
noted, the woman that you talked to said, look, there are only 
two places to go, the United States and Europe. I mean, this is 
a challenge of staggering proportions.
    What we have now, which most people do not realize, but 
what I think what is coming in the future when people see that 
this migration takes place--and you can do it, and you can 
become a citizen of another country by simply packing up and 
moving.
    How do you see this playing out? I mean, this is a problem 
that looks to me like it is just going to overwhelm the planet. 
Anybody want to take a run at that?
    Ms. Lindborg. Actually, and just to make you more 
depressed, I think the relevant number is 60 million, which is 
the number of people who are forcibly displaced right now, 20 
million as refugees, the rest as displaced within their own 
countries.
    Senator Risch. But probably subject to the same thought 
process I just went through.
    Ms. Lindborg. Exactly, absolutely.
    Senator Risch. We have left our home. Why stop here when we 
can move on?
    Ms. Lindborg. So I think we have talked a lot about some of 
the urgent shorter term solutions that one might employ in 
dealing with the roots of the Syria conflict, which is this 
raw, bleeding conflict that is driving a lot of people through 
the region.
    I would put a couple of other considerations on the table. 
One is that in Iraq where there is movement right now to clear 
ISIS, we have the urgent opportunity to help people return 
where they are able to and where they would like to. And USIP 
has been working with communities on the ground in places like 
Tikrit that are cleared of ISIS, but in order for people to go 
home, you really need to work on a concerted dialogue process 
that gets rid of the mistrust and rebuilds the social cohesion 
so they can go home and live side by side with neighbors who 
might be different from themselves. As we look at investing in 
our military action in Iraq, we need to ensure that we are 
commensurately investing in all of those solutions that do 
enable people to go home so they do not join that migration 
that you have talked about.
    Even longer term, I would note that among the Syrians who 
are going to Europe these days, among the 20 million or 60 
million, almost everybody is from a country that one would term 
as fragile, you know, weak, ineffective, and/or illegitimate in 
the eyes of its citizens. And these are the countries that have 
the billion people who are living in poverty. They are the ones 
that have that mixture of oppression, of violent conflict and 
poverty that are driving people to seek better lives.
    Longer term, we collectively need to refocus how we think 
about development programs, moving development, humanitarian 
assistance to work hand in hand with security and diplomacy. We 
have just had new sustainable development goals passed in New 
York this week where there was the historic inclusion of 
something called Goal 16, which basically calls for inclusive 
democratic societies with accountable justice for all, which 
sounds very Pollyannaish, but every nation has signed off on 
this. And it gives us a platform for insisting that we not 
continue to have these kinds of bleeding sores around the world 
that create these kind of humanitarian crises and keep so many 
people in misery and poverty.
    Mr. Miliband. Can I just briefly address I think a very 
important point that Senator Risch has made, which is to 
understand the distinction between someone who is fleeing for 
economic reasons and someone who is fleeing for reasons of 
political persecution, which is what defines a refugee? It is a 
world on the move, and there are 200 million people moving 
around the world for economic reasons. And I think one of the 
lessons of this crisis is that it is very, very important, 
indeed, to maintain the integrity of the status of a refugee, 
someone who has a well-founded fear of persecution, and the 
erosion of that status has damaging implications for the 
politics of this issue and it has damaging implications for the 
policy of this issue.
    The truth is it is harder to reach America as a refugee 
than any other way short of swimming across the Atlantic. The 
checks, the vetting, et cetera are far, far tougher to arrive 
in the United States as a refugee than under any other visa or 
other regime. And in a way you can understand that because 
there are rights associated with refugee status that are 
earned, that if you have a well-founded fear of persecution, 
that you have rights and the state has obligations to you. And 
I think it is important that we do not allow that status to be 
undermined because when it becomes part of a simple migration 
debate--in honest truth, that is what has happened in Europe. A 
lot of the problems in Europe are for the confusion of the 
migration debate with the refugee debate--then it is very, very 
hard to hold the public, never mind to run the policy.
    Senator Risch. Interesting.
    Thank you, Mr. Chairman.
    The Chairman. Before I turn to Senator Markey, just to put 
things in context, our staff looked up the numbers relative to 
the Yugoslav war of a decade, and there were 140,000 people 
that were killed and 4 million people displaced. So if you look 
at the scale, this one causes that to pale, and yet, again 
there is no real action relative to the barrel bombing.
    So, Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    Secretary Miliband, I have been and remain a skeptic of 
policy recommendations that increase the risk of 
Americanization or Westernization of the armed conflicts in 
Iraq and Syria. And I would much rather see us work to 
influence parties toward internal compromises necessary to end 
violence and work together to establish governments that fully 
represent and fairly treat all people.
    Most recently, we have heard that U.S. policy may be moving 
toward the creation of so-called safe zones, long advocated by 
Turkey. Just last week, retired General Petraeus called for us 
to create, quote, enclaves in Syria protected by coalition air 
power where a moderate Sunni force could be supported and where 
additional forces could be trained. Internally displaced 
persons could find refuge, and the Syrian opposition could 
organize.
    But on September 16, here in the Foreign Relations 
Committee, we heard testimony from Michael Bowers of Mercy 
Corps who told us that such zones cannot be considered safe.
    I have been advised that there are three requirements for 
true, effective humanitarian safe zones. One, parties to the 
armed conflict must agree to the creation of the zone and to 
respect it. Two, the zone must be secured by an impartial force 
with sufficient capability and size, and it is critical that 
this force not be a party to the conflict or a supporter of any 
party to the conflict. Three, the zone must be deemed 
militarized, meaning that it must not be a base for any 
military activity or operations by parties to the conflict, and 
this must be rigorously enforced by the impartial security 
force.
    In August, the U.N. Special Envoy for Syria, Staffan de 
Mistura, completed a round of consultations that the U.N. 
Security Council has endorsed.
    Secretary Miliband, could you provide your perspective on 
how the P5 and the entire international community can focus 
diplomatic support for his efforts? More specifically, how 
might such a process create true humanitarian safe zones in 
Syria that meet the criteria I just mentioned?
    Mr. Miliband. Thank you, Senator. I would say two things.
    First of all, your skepticism about military engagement is 
widely shared. And I know that you have not been a skeptic 
about engagement internationally generally. And I think the 
greater the skepticism about the military side, the greater the 
responsibility to act on the humanitarian and the political.
    Secondly, I said earlier that I thought that in the debate 
about safe zones, no-fly zones, it was important to move from 
slogans to details, which is what you have done, and also learn 
the lessons of history because all of us--actually my 
colleagues here with far more personal experience than me can 
speak to the different ways in which different tactics for the 
establishment of safe zones have worked or have not worked.
    Where I can comment--and the well known example of the 
Kurds in 1991 who were protected versus the Srebrenica 
example--in a way one of my frustrations is that we have got to 
go beyond just using those two examples as clubs with which to 
beat the argument. We need to get right underneath the details 
because the truth to my mind is that the situation in Syria and 
Iraq at the moment is unlike anything else that we have seen 
before, and we need to learn from history but not be imprisoned 
by it.
    You asked about the diplomatic and political engagement. I 
said in my opening statement that it is extraordinary to look 
not just at the numbers of people affected by this crisis but 
the absence of political engagement either from the great 
powers or from the regional powers on the political front. The 
Staffan de Mistura mission does not have the active ongoing 
engaged backing on a day-to-day basis of the nations who voted 
for the establishment of his office. And that contrasts with 
the situation in the Balkans where there were successive 
contact groups and other formations of the P5, the permanent 
members of the Security Council, and others to try to put 
political and diplomatic muscle behind the attempts.
    Now, many times those attempts failed to resolve the 
Balkans crisis, but nonetheless there was the effort. And I 
think I would argue for as inclusive a process as possible 
because that reflects the realities on the ground and for a 
process as structured and urgent as possible, secondly; and 
thirdly, for a process that does not leave the humanitarian 
situation last because often in these diplomatic--I do not like 
to say ``games,'' but diplomatic enterprises, the humanitarian 
situation seems an add-on, whereas to my mind it may well be 
that the humanitarian situation provides the way in for a 
contact group rather than the conclusion of a contact group. 
And it is in that light that I suggested that this notion of 
humanitarian envoys appointed by the P5 heads of state but also 
by the regional powers to start with what should be unbreakable 
rules. And that seems to me to be at least a plausible 
hypothesis about a way an international effort could begin.
    Ms. Lindborg. If I could just underscore two points.
    I would, first of all, emphasize that now that this crisis 
has reached the shores of Europe, it does catalyze a renewed 
focus, and the humanitarian crisis is an important way in. It 
is now the leading edge of this crisis as it presents globally.
    Secondly, it is very dangerous to conflate military 
approaches with civilian protection. Any approach that 
conflates those goals I think is a perilous way forward.
    Senator Markey. So you agree more with the three-point 
program that I laid out. Do you each agree with that? That is a 
better approach?
    Ms. Lindborg. Yes, although I would fully subscribe to 
David's advice that we have a detailed conversation based on 
particulars. But, yes.
    Senator Markey. No, no. I appreciate that. But in 
principle, the sanctuary for the refugees can also be the 
military base.
    Ms. Lindborg. Correct.
    Senator Markey. You all agree with that. So I think that is 
a contract with General Petraeus, and I think it is important 
for us to put that out here on the table because that is, I 
think, central to this issue.
    Mr. Chairman, I wanted to ask an additional question about 
Yemen.
    The Chairman. Sure.
    Senator Markey. But I can wait. Is that all right?
    The Chairman. Just out of curiosity, since I understand 
your point of view and I think David Miliband does too, are you 
saying on the other hand that you would support U.S. 
intervention to stop the barrel bombing if it was not about 
military activity taking place within that safe zone but 
protection of civilians?
    Senator Markey. Are you asking----
    The Chairman. No. I am asking you that, just out of 
curiosity. I just heard you all. Because that would be a 
breakthrough.
    Senator Markey. I think the breakthrough honestly has to be 
Obama and Putin sitting down and reaching an agreement on this. 
Okay? And I think that is the only way it is going to happen. I 
think any other intervention is not going to be effective in 
the long run. I think we need a political resolution of this, 
and we need everything on the table. And we need the major 
powers to get this back out of the cold war framework, which it 
is back into. So that is my view.
    The Chairman. Thank you.
    Mr. Miliband. Just for the record, Mr. Chairman, before I 
get or my organization gets signed up to----
    Senator Markey. No, no. Can I say this? You did not answer.
    Mr. Miliband. I just wanted to say that Nancy's point about 
details really matters. So let us just take the example of a 
demilitarized zone. A demilitarized in an area in a country 
which is flooded with arms of all kinds is a nice aspiration 
but does not speak to the detail of the situation on the 
ground. I would suggest that the imperative is to look at what 
a detailed proposal actually is and then measure it against the 
situation on the ground and the objectives that are set for it 
because in the end, it is the application of the principles 
that is going to matter. And frankly, the devil is in the 
detail, and my goodness, we have seen that in the last few 
years in Syria.
    Senator Markey. Just quickly, Ms. Lindborg, looking back to 
last winter and spring, it seems that we were on autopilot to 
reflexively support a Saudi decision to intervene in Yemen 
without a full examination of alternatives. What are your 
thoughts on this? What do we need to do to assess what we might 
have done differently last winter and spring, particularly 
diplomatically in the run-up to outside military intervention 
in Yemen?
    Ms. Lindborg. I would answer it this way. We are seeing 
where the military intervention is preventing humanitarian 
assistance from reaching populations that were very, very 
vulnerable to begin with, and we are already seeing the 
beginning of pockets of famine in Yemen. And if there is not an 
ability to provide assistance on a more regular basis, 
including the ability of ships to dock because Yemen is deeply 
dependent upon imports of fuel and critical food supplies--it 
is also running critically short of water, as we know--there 
will be massive widespread famine. And I think there is an 
important conversation to be had with both Saudi Arabia and 
Iran as to whether their military objectives are worth that 
kind of broad-spread humanitarian crisis.
    Senator Markey. What can we do to help to deescalate the 
violence so we can get the humanitarian aid into those who need 
it? What would you recommend that we do? What is the policy?
    Ms. Lindborg. I would increase the pressure to, at a 
minimum, create a regular cycle of humanitarian pauses so that 
there can be a regularized ability to get assistance in, 
including ships that can get in and regularly offload and 
onload. There is clearly a need for the bigger diplomatic 
resolution of the conflict, but in the absence of that, there 
needs to be a way to keep the country from tipping into famine.
    Senator Markey. Thank you.
    And, Mr. Chairman, Secretary Miliband was the leading voice 
in Great Britain on climate change, and I know how he knows how 
it interacts with food and water crises that then further 
exacerbates all these problems. But I know my time has run out, 
but I just wanted to thank you publicly for all the work you 
have done in your career, Mr. Secretary.
    Mr. Miliband. Thank you very much.
    The Chairman. Any additional comments?
    I want to thank you and thank all three of you for your 
testimony, for the service that you provide to so many people 
around the world. Certainly the world would be a very different 
place if you and the organizations you represent were not doing 
the things that you are doing. So we thank you very much for 
your testimony. We appreciate the honest assessment you have 
given us on topics maybe outside of what you actually came here 
to necessarily talk about. It is much appreciated.
    And if you would, there will be additional questions, I 
know, and comments from others. I would say to the committee if 
we could have those in by close of business by Thursday, and if 
you could respond fairly quickly, we would appreciate that. But 
again, thank you for your service. Thank you for helping us 
understand the magnitude and some of the details relative to 
the problem.
    And with that, this meeting is adjourned.
    [Whereupon, at 11:52 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


                Response of David Miliband to Question 
                     Submitted by Senator Tim Kaine

    Question. During the hearing, you spoke of the need to ``move from 
slogans to a discussion of the details'' of humanitarian safe zones. 
You also noted that international NGOs should have an important voice 
in that discussion given their particular experience and knowledge of 
the current situation on the ground and what has worked in the past and 
what has not. At the same time, you acknowledged that prior examples of 
safe zones in Kosovo and Kurdish Iraq are not perfect precedents for a 
situation as unique and complex as the current situation in Syria.

  <diamond> Given that, from your perspective at the International 
        Rescue Committee, what are the specific recommendations and 
        what lessons learned would you offer policymakers on the 
        details of a feasible and effective safe zone to address the 
        humanitarian needs of Syrian civilians?
  <diamond> What coordination, operational and diplomatic modalities 
        would be essential for such a zone to be successful?

    Answer. Thank you Senator Kaine for your question at the hearing 
and your deep interest in responding to the crisis in Syria.
    There is a healthy debate around the topic of civilian protection 
mechanisms and no definitive guidelines for the best course of action, 
reflecting the great variance in context between conflicts. There are, 
however, key considerations that the International Rescue Committee 
(IRC) and other humanitarian actors would put forward to policymakers 
to address in their calculus on civilian protection options. It is by 
exploring these questions (and others) that we can begin the process of 
``moving from slogans to details'' as I noted at the hearing.
    Consent of all parties: The ideal, in order for a zone to be deemed 
``safe,'' is that parties to the conflict agree to the terms. Without 
this consent--civilians can and will continue to be targeted. In fact 
the creation of the safe zone can concentrate civilians and make them 
easier targets. This occurred in the case of the six safe zones that 
were declared through United Nations Security Council Resolution 
(UNSCR) 819 in Bosnia in 1993. Bosnian Serbs did not consent to the 
creation of the safe havens or recognize the areas as neutral spaces. 
As a result, they moved in and proceeded to slaughter Bosnian Muslim 
men and boys, including 8,000 in Srebrenica alone. Hence, there is some 
skepticism about ``safe zones.'' That consent, which may lure civilians 
into a false sense of security, may also change over time. Such was the 
case in Sri Lanka, where civilians were encouraged to move into ``no 
fire zones'' in 2009 for their own protection as the government pursued 
the Liberation Tigers of Tamil Elam (LTTE) in the final months of that 
country's decades-long civil war. The zones ultimately were bombed and 
an estimated 40,000 civilians were killed.
    Given the sheer numbers of parties to the conflict in Syria--many 
of which have shown blatant disregard to international humanitarian law 
and the lives of innocent civilians--and their fractious, ever-evolving 
nature, ensuring this consent and maintaining adherence to it would be 
extremely challenging.
    Defense of safe zone: Without such agreement, safe zones can still 
be established. However, they will require some form of defense--
including the deployment of ground forces under a proactive mandate and 
clear rules of engagement--to ensure the protection of the civilians 
within them. The U.N. Security Council is authorized to act to restore 
international peace and security when it determines the existence of a 
threat, including through establishing safe zones, even when all 
parties do not consent. Such was the case in the situation of UNSCR 891 
on Bosnia and Herzegovina. However, as we so painfully learned, the 
peacekeeping presence protecting the six cities deemed safe zones was 
not enough (only 7,500 strong). Furthermore, the U.N. Protection Force 
(UNPFOR) in Bosnia only had a standard peacekeeping mandate that 
allowed for the use of force only in the case of self-defense (not to 
proactively protect civilians).
    While we are not likely to see a U.N. peacekeeping force in Syria, 
the point remains that safe zones without the consent (and sometimes 
with) the agreement of all relevant parties to the conflict must be 
actively protected and attacks deterred. Introducing another military 
force (whether backed by the U.N. Security Council or otherwise) into 
the equation amounts to creating a new party to the conflict. That can 
(and is intended to) alter the conflict dynamics.
    The defense of a safe zone may be required not over a period of 
months, but years. As the no-fly zone (NFZ) instituted in northern Iraq 
in 1991 shows, protection may be needed for a decade or more. This NFZ 
is widely viewed as a successful effort to protect civilians, but 
evolved over the course of 12 years from Operation Comfort to Operation 
Comfort II to Operation Northern Watch. Without a definitive change in 
the dynamics threatening the population, it is not possible to define 
what the time dimensions and the commitment involved to provide 
continual protection to them in a safe zone will be.
    Demilitarization: In order for a ``safe zone'' to truly be a space 
where people are protected and which is off limits to armed actors, it 
would have to be demilitarized. To the extent that parties to a 
conflict agree with the concept, their continued support may largely 
hinge on the fact that establishing a safe zone is not to the benefit 
of any actor. This means ensuring that it is not a space for fighters 
to organize or launch attacks. Certainly, the recent introduction of 
Russian forces into the theater of conflict complicates 
demilitarization, and must be considered very carefully.
    It is also critical for humanitarian organizations providing 
assistance in such a safe zone to not be involved in a situation where 
their actions benefit a party to the conflict by assisting them as they 
continue to perpetrate violence--which is in contravention of the 
humanitarian principles of impartiality and neutrality.
    The establishment of safe zones in 1994 through UNSCR 929 in 
southwest Rwanda demonstrates this dynamic well. An estimated 1.2 
million people ended up living in safe zones protected by a temporary 
multinational force through Operation Turquoise. However, it was widely 
understood that Hutu genocidaires were not all disarmed and continued 
to perpetrate the genocide from within the safe zone. The protection 
and humanitarian assistance that was afforded to Rwandans fleeing 
violence was partly undercut by the ability of armed actors to continue 
killing people from the safe zones. In an environment like Syria where 
arms are circulating freely among a panoply of fighting forces, serious 
efforts would need to be made to ensure the civilian and demilitarized 
nature of a safe zone.
    Incentive to close asylum space: Some people argue that the 
creation of safe zones may provide an incentive for the countries of 
asylum surrounding Syria--Jordan, Turkey, Lebanon and Iraq--to close 
their doors to refugees fleeing to safety. As I detailed in my 
testimony, the social and economic impact of hosting 4 million Syrian 
refugees is profound in these countries. Despite the generosity that 
has been extended to refugees, this impact has begun to translate into 
tightening asylum space, the closing of border crossings and an 
increased desire to see displaced Syrians remain inside Syria. These 
troubling developments are documented in a report the IRC and Norwegian 
Refugee Council published last year called ``No Escape: Civilians in 
Syria Struggle to Find Safety across Borders.''
    The recent debate (and seeming confusion) between the U.S. and 
Turkey about the purpose of the buffer zone being established north of 
Aleppo along the border with Turkey highlights this concern. While it 
has now been made clear that this zone is not considered a protected 
zone by the U.S. Government, there were initial indications that the 
Turkish Government hoped such a zone--one from which attacks to defeat 
ISIL would be launched--could also serve as a haven for the millions of 
Syrians who have fled into Turkey. Beyond the further tightening of the 
border for Syrians fleeing, there is concern that establishing a safe 
zone may actually result in Syrians being sent back into Syria from the 
countries where they have sought safety, under the guise that they no 
longer need international protection.
    Pull Factors: Establishing safe zones could create pull factors for 
people to move from the areas where they are currently located and, as 
a result, possibly put themselves at extensive risk to reach them. 
Without a mechanism to protect civilians on their way to safe zones, 
this may increase the danger they face. In the case of Syria, civilians 
face a gauntlet of security challenges across the country and, if they 
are able to actually escape the areas where they face threats (as many 
as 422,000 people are estimated to be besieged), they face a mosaic of 
armed actors, check points and indiscriminate attacks of all varieties 
as they move through the country on to safety.
    Protection outside of the safe zone: Finally, creating safe zones 
somehow indicates that the rest of the country is not safe and that 
efforts are not being extended beyond these particular geographies to 
protect civilians. While safe zones established with the correct 
contextual planning could offer protection to some civilians, it may 
detract from the urgency of protecting all civilians in Syria. In a 
conflict where there has already been shockingly little progress toward 
any semblance of a political solution--let alone agreements to stop 
targeting civilians directly or ensure that humanitarian assistance 
reaches those who need it--the establishment of a safe zone may provide 
a false sense of resolution. Establishing safe zones in a conflict 
characterized by massive and widespread violations of international 
humanitarian law must be looked to as one step to provide protection 
for some people in need, but not a silver bullet. The creation of any 
zone must not become an excuse to further political inertia on an 
urgent and unparalleled challenge of our time.
                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                                                  
                                <all>
</pre></body></html>
